<html>
<title> - DEPARTMENT OF THE INTERIOR, ENVIRONMENT, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2009</title>
<body><pre>[Senate Hearing 110-]
[From the U.S. Government Publishing Office]


 
     DEPARTMENT OF THE INTERIOR, ENVIRONMENT, AND RELATED AGENCIES 
                  APPROPRIATIONS FOR FISCAL YEAR 2009

                              ----------                              


                        TUESDAY, APRIL 15, 2008

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:07 a.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Dianne Feinstein (chairman) 
presiding.
    Present: Senators Feinstein, Dorgan, Nelson, Allard, Craig, 
Stevens, Cochran, and Alexander.

                       DEPARTMENT OF THE INTERIOR

                        Office of the Secretary

STATEMENT OF HON. DIRK KEMPTHORNE, SECRETARY
ACCOMPANIED BY:
        JAMES CASON, ASSOCIATE DEPUTY SECRETARY
        PAM HAZE, DIRECTOR, OFFICE OF BUDGET

             OPENING STATEMENT OF SENATOR DIANNE FEINSTEIN

    Senator Feinstein. The meeting will come to order. This is 
the Interior Subcommittee on Appropriations, and we are having 
a hearing this morning on the Interior Department's budget.
    The distinguished Secretary of the Interior has joined us, 
and I understand he has to be at the White House in the late 
morning and must be out of here by 11:30. So for all members' 
advisement, please know that and we will try to move along as 
rapidly as possible. Question rounds will be 5 minutes and we 
will use the early bird rule.
    Testifying is the Secretary of Interior. Joining him is Jim 
Cason, the Department's Associate Deputy Secretary, and Pam 
Haze, the Director of the Office of Budget. We would like to 
welcome all three of them.
    Mr. Secretary, with the change of administration set for 
next year, this will most likely be your last appearance before 
this subcommittee, and I want you to know--and I think I speak 
for all my colleagues when I say that we deeply appreciate the 
degree of dedication you have brought to your job. I have had 
the privilege of working with you, as had Senator Craig, as a 
Member of this body. I do not think Senator Alexander or Allard 
did.
    Senator Allard. I did.
    Senator Feinstein. You did? Well, let me speak for Senator 
Allard then, as well.
    Your collegiality is always very much appreciated.
    Secretary Kempthorne. Thank you very much.
    Senator Feinstein. You have brought a very distinct level 
of cooperation to us and our staff. We think you exemplify 
public service and we sincerely wish you the very best in all 
of your endeavors.
    Secretary Kempthorne. Thank you.
    Senator Feinstein. Turning now to your budget, though, this 
is a horse of another color. I want to thank you for retaining 
some of the programmatic increases the Congress provided in the 
2008 bill. The extra funding for park operations, for refuge 
operations, for maintenance of refuges, and for law enforcement 
on Indian lands are all critically important to us, and we 
think they will make a real difference in the field.
    But despite those successes, this proposal leaves us in a 
very difficult position, and I think the best I can offer is 
please work with us as we work on this budget.

                          2009 BUDGET REQUEST

    All in all, the Department's 2009 request is a reduction of 
$189 million, or just 2 percent from the current level. The 
real cut, however, we find is much larger when you factor in 
the $165 million in fixed cost increases that have to be 
covered and the additional $45 million needed to meet the 10-
year average for fire suppression. Taking these costs into 
account, the request more realistically represents a reduction 
of nearly $400 million, or 4 percent below the 2008 level.
    Now, to be fair, there are two sizeable increases: the $160 
million for park operations and an additional $45 million for 
fire suppression. But those increases are offset by hefty cuts. 
Consider construction at parks, refuges, and Indian schools cut 
$99 million, or 21 percent; land acquisition at parks and 
refuges cut $51 million, or almost 60 percent; Bureau of Indian 
Affairs overall cut $100 million, down 4 percent; and Payments 
in Lieu of Taxes, fondly known around here as PILT, cut $34 
million, or 15 percent; State and local historic preservation 
projects cut $25 million, or 19 percent; and State land 
acquisition grants cut $25 million. That is 100 percent.
    As we look at these cuts, it is clear to me that the budget 
is the product of some rather arbitrary decisionmaking at the 
Office of Management and Budget. Given the size of the backlog 
maintenance problem, for example, there is simply no way to 
justify a 21 percent reduction in the construction programs, 
nor can a $100 million cut at the Bureau of Indian Affairs be 
explained away as good public policy. BIA may be a lot of 
things, but overfunded it is not. So I suspect that as we begin 
drafting this appropriations bill, members of the subcommittee 
will largely be in agreement that many of the proposed 
reductions are untenable and need to be fixed.
    Before turning to our distinguished ranking member for any 
opening comments, I want to thank you for your leading role in 
negotiating the San Joaquin River Restoration Settlement 
Agreement and the implementing legislation as well. I am one 
that believes that a negotiated settlement is much better than 
a judge becoming master of this river, and I want you to know 
how much I appreciate your help in the outcome. I think it is 
going to be marked up in the Energy Committee in May or June of 
this year. So I am very pleased about that.
    I would now like to turn to my distinguished ranking 
member, Senator Allard, for any comments you may care to make.

               OPENING STATEMENT OF SENATOR WAYNE ALLARD

    Senator Allard. Well, thank you, Madam Chairman, and I 
would like to just reiterate your comments at the first of your 
opening statement about what a pleasure it has been to work 
with Secretary Kempthorne both as a colleague, as well as head 
of the Department of the Interior.
    I want to thank you, Madam Chairman, for calling this 
hearing today.
    I appreciate, Secretary Kempthorne, you joining us this 
morning to testify on the fiscal year 2009 budget for the 
Department of the Interior. Again, I know this will be your 
last year, most likely, at the helm of that Department, and you 
probably will not miss us much, but we will definitely miss you 
at Interior.
    I think I speak for all of us in saying that we, again, 
appreciate your leadership. It is not an easy job. It is a 
controversial job. You have handled the challenges 
exceptionally well despite those challenges.
    Your Department administers 507 million acres, or roughly 
one-fifth of the land area of the United States. The most 
beautiful public lands you manage are in my State of Colorado. 
For example, Rocky Mountain and Mesa Verde National Parks rival 
anyplace in North America for their majestic scenery, as well 
as their cultural importance.
    Your Department also controls some of the most economically 
important public lands in Colorado, in particular, the oil and 
gas resources of the Roan Plateau which are under the 
jurisdiction of the Bureau of Land Management. There is 
vigorous debate among the people of Colorado about how best to 
manage the resources of the Roan. I think most people want 
responsible development of this area, but at the same time, 
they want it done in an environmentally sound way. I share this 
view and hope to discuss the development of the Roan Plateau 
with you further today and hopefully get a commitment from you 
to work together with me and others in delegation to address 
this issue that is so critical to my State.
    The chairman went through most of the budget numbers, so I 
will just mention a few that are of particular interest to me. 
The total request of the Department is $9.8 billion for the 
programs under this subcommittee's jurisdiction, which is $199 
million less, or 2 percent below the fiscal year 2008 enacted 
level. But most of the proposed cuts have come from the land 
acquisition and construction programs of the Department.

                       NATIONAL PARKS CENTENNIAL

    Similar to last year, the most significant increase in the 
Interior budget by far is $160 million for the National Park 
Service as part of the Centennial Initiative. There is also 
legislation pending before the Energy and Natural Resources 
Committee that would provide an additional $100 million 
annually in mandatory spending on a matching basis for the 
Centennial Challenge Fund.
    Since the authorizers had yet to act on this proposal in 
fiscal year 2008, this subcommittee provided $25 million in 
matching funds to kick off the centennial matching funds 
initiative last year, and I understand that you will be 
announcing the recipients of those matching funds later this 
month.
    While I support providing these matching funds, it is my 
hope that we will not do that again this year. But do not get 
me wrong. I am a strong advocate of our national parks. 
However, in my view this subcommittee does not have the 
resources to fund the centennial matching fund initiative that 
is appropriately before the authorizing committee. If we 
continue to go down this path by funding what is intended to be 
a mandatory program each year out of our limited discretionary 
dollars, my fear is that in lean budgetary times, the 
centennial matching program may well come at the expense of the 
basic operations of our national parks.
    I will be interested in hearing today about your efforts to 
work with the authorizing committee to pass the centennial 
matching fund legislative initiative.

                       PAYMENTS IN LIEU OF TAXES

    There are a couple of cuts in your budget that I find 
especially disappointing. First, once again, I see that PILT 
has been reduced dramatically by $34 million. This is 
absolutely critical to many of our rural communities in the 
West that are dominated by Federal lands, as you are well aware 
of, I am sure, Mr. Secretary.

                        NAVAL OIL SHALE RESERVES

    Second, I cannot support the budget proposal to cancel 
$24.7 million of balances in the Naval Oil Shale Reserve site 
restoration fund account. You have been working with me on 
certifying this site so that the cleanup can commence, and I 
appreciate that. But if the Department had not taken so long to 
reach the point of certifying the site, then half of the money 
that is going into the fund from oil and gas production, which 
currently is about $2 million per month, would be going to the 
State of Colorado pursuant to the Mineral Leasing Act. It is my 
intention to work with the chairman to see that all these funds 
do not simply go to the Treasury, but that Colorado receives 
its rightful share of these royalties that were derived from 
oil and gas development in my State.
    That concludes my opening statement, and once again, I 
appreciate the Secretary appearing before the subcommittee 
today and I look forward to asking him some questions this 
morning.
    Senator Feinstein. Thank you very much, Senator. I 
appreciate your testimony.
    It would be my intent to proceed directly to the Secretary 
because of his time constraints, unless members really want to 
speak. Is that agreeable with everyone?
    Senator Allard. Certainly.
    Senator Feinstein. Thank you very much.
    Mr. Secretary, we will turn it over to you.

               SUMMARY STATEMENT OF HON. DIRK KEMPTHORNE

    Secretary Kempthorne. Madam Chairman, thanks very much and 
thank you for the very kind remarks which you made at the 
beginning of your statement. Senator Allard, thank you as well.
    Senator Allard, you said that I may not miss you. I would 
say that I know that I will miss all of you because when I made 
the conscious decision to leave the U.S. Senate to run for 
Governor, I left behind tremendous friendships, and this 
position has allowed me to reconnect and to work with you 
again. Madam Chairman, our friendship began when you were mayor 
of San Francisco and I was mayor of Boise and then to have had 
the great pleasure and honor of serving with Senator Allard, 
with Senator Cochran, Senator Craig, who is one of the great 
men of Idaho. Then, to have the friendship of Senator Alexander 
and Senator Nelson where we established that when we both 
walked the paths as Governor, you know about collegiality. I 
think that Senator/Governor Alexander and Senator/Governor 
Nelson would say that there is not quite the same collegiality 
between a Governor and his or her legislature.
    So I do enjoy this camaraderie.
    I want to thank you for your strong bipartisan support that 
this committee provided in enacting our budget request with 
fixed costs and our 2008 budget initiatives. I appreciate your 
leadership.
    In 2008, we charted a course of excellence for our national 
parks. We broadened our planning horizons to achieve Healthy 
Lands, while securing energy for the Nation, and we put the 
needs of Indian country center stage.

                              2009 BUDGET

    In 2009, we build on these commitments, but more challenges 
confront us, challenges that will require our action. We are 
proposing four new initiatives in 2009 to address water crises, 
manage our oceans, reverse the dramatic decline in wild birds, 
and protect our borders. Our 2009 budget also retains many of 
the increases that you provided in key areas, such as refuges.
    Our 2009 budget is $10.7 billion and it benefits every 
American each day in some way. This budget slightly exceeds our 
2008 request. You will see that our budget includes strategic 
reductions primarily in construction, land acquisition, and for 
congressional earmarks. For programs under the purview of this 
subcommittee, the $9.8 billion budget is $199 million, or 2 
percent, below the 2008 enacted budget.

                           OPERATING BUDGETS

    Despite this overall decrease, we propose operating 
increases of 4 percent over 2008 for our land management 
bureaus. Strong funding of base operations supports ongoing 
programs in conservation, recreation, and resource management 
on public lands. This budget will allow them to continue to 
serve America in continued and new ways through 2008 and 
through 2009.

                       NATIONAL PARKS CENTENNIAL

    Last year we announced our National Parks Centennial 
initiative. We held listening sessions across the country. We 
asked Americans to tell us their vision for our parks. The 
public spoke and we listened. We are adding 3,000 seasonal park 
rangers this year to enrich visitor experiences. Our 2009 
request for park operations is historic. We are requesting an 
increase of $161 million, or 8 percent. Together with 2008 
funding, the 2-year increases total $283 million, or 14 
percent. With these increases, the total park operating budget 
is $2.1 billion.
    Our initiative also proposes the National Parks Centennial 
Challenge, which would provide up to $100 million in mandatory 
funding to match philanthropic contributions to enhance our 
national parks in time for the 100th anniversary of the park 
system in 2016. I am particularly appreciative, Chairman 
Feinstein, that you and Senator Allard provided the first 
segment of funding for the National Parks Centennial Challenge 
matching projects. It is greatly appreciated by many.
    We are preparing to announce the projects that will be done 
with the $25 million appropriated in 2008. We have received 321 
written letters of commitment from Americans across the country 
pledging $301 million of their money for centennial projects. 
Once Congress approves the Centennial Challenge matching fund 
legislation, those pledges and the matching Federal funds will 
be available to benefit parks all around the country.

                        HEALTHY LANDS INITIATIVE

    Interior's responsibilities extend beyond parks to 258 
million acres of public lands in the West, lands key to 
communities and economies of the West. In some of these areas, 
world-class wildlife habitat sits on top of world-class energy 
reserves. We must maintain healthy lands, sustain wildlife, and 
secure energy for this Nation. Our Healthy Lands Initiative 
launched in 2008 provides that holistic framework. It allows us 
to maintain wildlife corridors while providing continued access 
to significant energy resources. Our 2009 budget proposes a $14 
million, or a 200 percent, increase over the 2008 funding 
level.

                           INDIAN INITIATIVES

    Last year we also launched two initiatives in Indian 
country: one to battle the drug scourge from the drug cartels 
invading reservations; and the other to bring hope to Indian 
youth by improving their schools. Both of these initiatives 
received overwhelming support by this Congress.

                   SAFE INDIAN COMMUNITIES INITIATIVE

    Under the Safe Indian Communities Initiative, we proposed 
an additional $16 million last year to battle the scourge of 
methamphetamine that threatens an entire generation of Native 
Americans. Congress supported our proposal and added an 
additional $8 million to this initiative. The bipartisan 
message is clear. We must get drug dealers off reservations and 
behind bars.
    In 2009, we sustain the full $24 million in funding 
increases provided in 2008, and we propose to add $3 million 
more for the initiative, for a total of $27 million.

                       IMPROVING INDIAN EDUCATION

    In 2008 under the Improving Indian Education initiative, we 
proposed increases of $15 million to help Native American 
children reach their potential. Congress endorsed our vision 
for Indian education, funding our request and investing another 
$9 million, bringing our initiative total to $24 million in 
2008.
    In 2009, we uphold our promise to Indian children. We 
sustain the 2008 funding and provide another $2 million, 
investing a total of over $25 million. The issues of safety and 
education go beyond the budget. They are at the very heart of 
the future of Indian country. We must act now to ensure that 
the dreams of today's youth will become the realities of 
tomorrow.

                      WATER FOR AMERICA INITIATIVE

    As I mentioned earlier, we also have four new initiatives 
in our budget, initiatives that address some of the most 
critical issues facing this Nation. Last year the National 
Science and Technology Council reported that ``abundant 
supplies of clean, fresh water can no longer be taken for 
granted.'' Water scarcity is not just a problem of the West. It 
is a problem of this Nation. America increasingly faces water 
scarcities, particularly in areas of rapid population growth. 
We are seeing prolonged droughts and water conflicts in areas 
such as the Southeast where people are used to having unlimited 
water.
    We are proposing a Water for America Initiative to ensure 
that communities have reliable water supplies in this 21st 
century. Under this initiative, we will partner with States to 
conduct the first water census for this Nation in 30 years. The 
initiative includes $8 million for the U.S. Geological Survey.

                OCEANS AND COASTAL FRONTIERS INITIATIVE

    Our second new initiative advances our knowledge of our 
oceans and protects spectacular ocean ecosystems. Under our 
oceans initiative, we are proposing an additional $8 million to 
support the President's Ocean Action Plan. Our ocean initiative 
will broaden our knowledge, and we will undertake extensive 
mapping of our extended outer continental shelf. Coastlines are 
littered with marine debris ranging from soda cans and small 
plastic objects to derelict fishing gear and abandoned vessels. 
We are losing coastal wetlands that protect us from major 
storms, purify water, and serve as nurseries for marine 
fisheries. Through our oceans initiative, we will join with 
partners worldwide to embark on a global marine debris and 
coral reef campaign.

                        BIRDS FOREVER INITIATIVE

    Together we have another task before us, reversing the 
decline in bird populations across America. Our initiative 
addresses the sharp decline of many populations of wild birds. 
On average, populations of common birds have plummeted 70 
percent since 1967. We add $9 million in 2009 for our Birds 
Forever initiative to help us reverse these trends. Our budget 
sustains $36 million in refuge increases funded in the 2008 
budget. We will improve over 200,000 acres of vital stopover 
habitat for migratory birds, the equivalent of over 150,000 
football fields.

                               DUCK STAMP

    We are also proposing the first increase in the sale price 
of the Duck Stamp in over 15 years. This increase will result 
in protections of an additional 17,000 acres of habitat.

                      SAFE BORDERLANDS INITIATIVE

    Our final new initiative addresses another issue in the 
Nation's headlines, an initiative that I raised with you last 
year and I have witnessed firsthand, and that is border 
security. The Department of the Interior manages public lands 
along more than 40 percent of our southwestern border with 
Mexico. Our employees, residents, and visitors face daily 
dangers. In many locations, families can no longer live or 
recreate without fear of coming across drug smugglers. As urban 
borders become more secure, illegal activity is shifting to 
remote areas. Drug cartels run violent drug smuggling 
operations across the border, as evidenced by the nearly 3,000 
pounds of cocaine and 740,000 pounds of marijuana seized in 
2007.
    We are proposing an $8 million increase in the 2009 budget 
to aggressively confront this problem. Combined with increased 
funding in 2008, we will place additional officers along the 
border.

                            ENERGY SECURITY

    Another critical issue facing this Nation is energy 
security. With the price of oil rising ever higher, it is 
imperative that we continue to offer access to our energy 
resources. Our new 5-year plan for offshore energy development 
provides access to an additional 48 million offshore acres. The 
Minerals Management Service will invest over $8 million in 
preparations for new leasing activity as identified in the 5-
year plan. Our recent lease sales in the Chukchi Sea and in the 
Gulf of Mexico generated $5.5 billion in bonus bids, 
historically high levels for lease sales. We will also help 
broaden the Nation's energy mix by providing opportunities to 
implement renewable energy on public lands and offshore.

                           PREPARED STATEMENT

    So, Madam Chairman, it is a budget we place before you. I 
look forward to working with you for your good thoughts and 
ideas as we achieve some very fine things together. Thank you.
    Senator Feinstein. Thank you very much, Mr. Secretary.
    [The statement follows:]
               Prepared Statement of Hon. Dirk Kempthorne
    Madam Chairman and members of this subcommittee, I appreciate the 
opportunity to present our 2009 budget priorities and to update you on 
our progress in implementing our 2008 programs. I thank this 
subcommittee for your support of our 2008 budget request. Support by 
the chairman and members of this subcommittee for the Parks Centennial, 
Healthy Lands, Safe Indian Communities, and Indian Education 
initiatives resulted in significant funding to advance our goals. I 
look forward to continuing our collaborative relationship as we pursue 
these priorities and address emerging challenges of water scarcity, 
ocean management, declining bird populations, and borderland security.
                              introduction
    The Department of the Interior's mission is complex and 
multifaceted. Our programs and mission stretch from the North Pole to 
the South Pole and across 12 time zones, from the Caribbean to the 
Pacific Rim. Our extensive mandate rivals any government agency in its 
breadth and diversity--and its importance to the everyday lives of 
Americans. In a recent poll of Federal agencies, the Department of the 
Interior received the highest rating for its public service.
    Nearly every American lives within a 1-hour drive of lands or 
waters managed by the Interior Department. With 165,000 facilities at 
2,400 locations, Interior is second only to the Department of Defense 
in managed assets. The Department's law enforcement agents, over 4,000, 
comprise the third largest civilian law enforcement presence in the 
Federal Government.
    Approximately 31 million people in the West rely on drinking water 
provided through water systems managed by the Department. Interior 
irrigation systems deliver water to farmers who generate over half of 
the Nation's produce.
    The lands and waters we manage generate one-third of the Nation's 
domestic energy production. Managing these areas, Interior generates 
$18 billion annually in revenues that exceeds Interior's $10.7 billion 
appropriated budget.
    Interior fulfills special responsibilities to Native Americans as 
the manager of one of the largest land trusts in the world--over 10 
million acres owned by individual Indians and 46 million acres held in 
trust for Indian Tribes. In addition to lands managed in trust, the 
Department manages over $3.3 billion of funds held in over 1,800 trust 
accounts for approximately 250 Indian Tribes and over 370,000 open 
Individual Indian Money accounts. Interior also operates one of only 
two school systems in the Federal government, the Bureau of Indian 
Education school system. The Department of Defense operates the other. 
A total of $65.5 billion in revenues from offshore and onshore mineral 
leases collected from 2001 to 2007 provided resources for Tribes, 
States infrastructure and other Federal programs.
                      overview of the 2009 budget
    The 2009 budget request for current appropriations is $10.7 
billion, $388.5 million or 3.5 percent below the level enacted by 
Congress for 2008, excluding fire supplemental funding, but $59.0 
million above the amount requested in the 2008 President's budget.
    Permanent funding that becomes available as a result of existing 
legislation without further action by the Congress will provide an 
additional $6.0 billion, for a total 2009 Interior budget of $16.7 
billion. Including permanent funding and excluding 2008 fire 
supplemental funding, the 2009 budget for Interior is $83 million above 
2008 amounts.
    The 2009 request includes $9.8 billion for programs funded by this 
subcommittee. Excluding fire supplemental funding, this is a decrease 
of $198.9 million, or 2 percent, below the level enacted for 2008. The 
2009 budget sustains and enhances funding for parks and public land 
health, the safety of Indian communities, and Indian education. The 
2009 budget funds these initiatives and addresses other nationally 
significant issues within a budget that maintains the President's 
commitment to fiscal restraint.
    We focus funding on these priorities while proposing reductions in 
construction and land acquisition, as well as programs that are 
duplicative or receive funding from alternative sources. We also 
propose to cancel some unobligated balances.
                          the challenges ahead
    Interior's responsibilities are expanding as the Nation looks to 
its public lands for energy, water, wildlife protection, and 
recreation. Since 2001, the Nation has created 13 new parks and 15 
wildlife refuges. Population has grown dramatically near once-rural or 
remote public lands, increasing access to public lands and complicating 
land management. In the last 10 years, 60 percent of the new houses 
built in America were located in the wildland-urban interface. Changing 
land conditions, including the effects of a changing climate, have 
heightened threats from fire and other natural hazards, complicating 
land management.
    The Department is improving program efficiency, setting priorities, 
and leveraging Federal funds through partnerships and cooperative 
conservation to meet these challenges. Interior's accomplishments have 
been many and varied, with noteworthy advances in management 
excellence.
    Interior has made progress on all dimensions of the President's 
management agenda--a result achieved despite decades-long challenges in 
Indian trust management, a highly decentralized organization structure, 
and a highly dispersed workforce. In 2001, Interior had 17 material 
weaknesses reported in the annual financial and performance audit. With 
the annual audit just completed for 2007, we have eliminated all 
material weaknesses. Despite these successes, as public lands become 
increasingly important to the economy, national security, and the 
public, continued success will require a strategic focus of resources 
to address emerging challenges, achieve key priorities, and maintain 
current levels of success.
                       interior's accomplishments
    The Department's accomplishments exemplify Interior's core values: 
Stewardship for America with Integrity and Excellence. Our 
achievements, in combination with an outstanding workforce, create a 
strong foundation for continued stewardship of the Nation's resources. 
Since 2001, the Department has:
  --Restored or enhanced more than 5 million acres and 5,000 stream and 
        shoreline miles through cooperative conservation.
  --Restored, improved, and protected wetlands to help achieve the 
        President's goal to protect, enhance, and restore 3 million 
        acres by 2009.
  --Improved park facilities for visitors by undertaking over 6,600 
        projects at national parks and earning a 96 percent 
        satisfaction rate from park visitors.
  --Reduced risks to communities from the threat of catastrophic fire, 
        conducting over 8 million acres of fuels treatments on Interior 
        lands through the Healthy Forests Initiative.
  --Enhanced energy security by more than doubling the processing of 
        applications for permits to drill and increased the production 
        of renewable energy with new wind, solar, and geothermal 
        projects.
  --Awarded $9.8 million to 140 Preserve America projects involving 
        public-private partnerships that serve as nationwide models for 
        heritage tourism, historic preservation, education, and other 
        Federal programs.
  --Leveraged a four-to-one investment through a water conservation 
        challenge grant program, generating more than $96 million for 
        122 water delivery system improvements and conserving over 
        400,000 acre-feet of water to help meet the water needs of 
        people across the West.
  --Completed planned lease sales and generated a new 5-year plan for 
        2007-2012 that opens up an additional 48 million acres to 
        leasing and has the potential to produce 10 billion barrels of 
        oil and 45 trillion cubic feet of natural gas over the next 40 
        years, enough to heat 47 million homes for 40 years. The 
        October 2007 Central Gulf of Mexico OCS lease sale generated 
        $2.9 billion, $1.6 billion more than originally estimated.
  --Removed the American bald eagle from the endangered species list 
        and put in place a set of management guidelines to secure the 
        future of our Nation's symbol.
  --Advanced protection of the Papahanaumokuakea Marine National 
        Monument in Hawaii, the largest marine protected area in the 
        world, with the publication of regulations codifying management 
        measures.
  --Hosted over 464 million visitors to parks, refuges, public lands, 
        and Bureau of Reclamation sites and increased the number of 
        fishing programs on refuges by 24 and the number of hunting 
        programs on refuges by 34.
  --Established a new Recreation Reservation Service, a unified pass to 
        public lands, and clarified entrance and recreation fees, in 
        coordination with other agencies.
  --Distributed over $79 million to individual Indian money account 
        holders whose whereabouts were previously unknown and archived 
        400 million pages of trust documents in a state-of-the-art 
        facility.
    Our 2009 budget continues investments the Congress provided in 2008 
for our top priorities. We continue our Centennial Initiative with 
record funding levels for park operations. We propose to augment 
funding for our landscape-scale Healthy Lands Initiative to protect 
wildlife and assure access to energy resources on public lands. We 
propose to sustain funding increases in 2008 to combat the 
methamphetamine scourge in Indian country and improve education 
programs for students in Indian schools.
    Fulfilling the President's commitment to cooperative conservation, 
since 2001, the Department has provided $2.5 billion in conservation 
grants to achieve on-the-ground protection, restoration, and 
enhancement of lands and waters with partners. This commitment 
continues with $321.7 million requested for cooperative conservation in 
2009 for challenge cost share and partnership programs that leverage 
Federal funding, typically more than doubling the Federal investments 
with matching funds.
    We also propose four new initiatives. We request $21.3 million for 
a Water for America initiative that will enhance knowledge of water 
resources and improve the capacity of water managers to avert crises 
caused by water supply issues and better manage water resources to 
assist in endangered species recovery. We will advance efforts to 
improve the status of birds, including migratory birds, and avert 
further declines in bird populations with an increase of $9.0 million 
for a Birds Forever initiative. The budget continues the $35.9 million 
refuge funding increase provided by the Congress in 2008, which will 
restore 200,000 acres of bird habitat. The 2009 budget seeks an 
increase of $7.9 million to collect data that is needed to define U.S. 
jurisdiction of the extended continental shelf under the Law of the 
Sea, protect wildlife and habitat in ocean environments from marine 
debris, and conduct high priority research to support coastal 
restoration. Lastly, the 2009 budget includes $8.2 million to increase 
the protection of employees, visitors, lands and resources that are 
increasingly at risk from illegal activities at parks, refuges, public 
lands, and Indian lands along the border with Mexico.
                     the national parks centennial
    Last May, we responded to the President's charge to prepare for the 
National Park Service's 100th anniversary. Our report to the President 
on the National Parks Centennial initiative encompassed the ideas and 
input from 40 listening sessions and 6,000 public comments. The report 
frames the 10-year effort to strengthen visitor services and other 
programs in parks in time for the National Parks Centennial. On August 
23, 2007, we announced more than 200 centennial proposals eligible as 
potential partnership projects in national parks as part of the 
National Parks Centennial Challenge.
    The 2008 President's budget set forth the initial investments to 
achieve the goals of the Centennial initiative, with $100.0 million in 
operating funds for the Parks Centennial initiative to fund new levels 
of excellence in parks. The President's proposal received broad 
bipartisan support in Congress. With the 2008 funding, our parks will 
hire 3,000 seasonal national park rangers, guides and maintenance 
workers; repair buildings; enroll more children in Junior Ranger and 
Web Ranger programs at the parks; and expand the use of volunteers in 
parks.
    The administration also introduced Centennial Challenge Fund 
legislation that would authorize the use of $100.0 million per year of 
Federal mandatory funding to match $100 million or more in 
philanthropic donations to the National Park Service. Both the House 
and Senate introduced bills based on the administration's legislative 
proposal. While the Congress continues to work on passage of the bill, 
the 2008 appropriation included $24.6 million in discretionary funding 
to begin the Centennial Challenge and match private philanthropic 
contribution for signature projects. I appreciate the strong support of 
this Committee for these matching funds.
    In 2009, our budget continues the President's commitment to the 
parks with a historic $2.1 billion budget request for the Operation of 
National Parks. This increase of $160.9 million, or 8 percent above the 
2008 enacted level would provide the largest budget ever for park 
operations. Cumulatively over 2 years, park operations increase by 15 
percent. This funding will allow the parks to preserve our Nation's 
natural and cultural heritage, improve the condition of parks and park 
facilities, and prepare a new generation of leaders to guide NPS into 
the 21st century. The budget also supports the President's proposed 
Centennial Challenge matching fund of up to $100.0 million annually.
    The 2009 budget will continue to build park operational capacity, 
including increases for core operations, facility management, U.S. Park 
Police operations, and youth partnership programs. The increase will 
improve the health of natural and cultural resources and continue to 
bring park assets into good condition using a predictive maintenance 
cycle. We will also develop a 21st century workforce with enhanced 
organizational capacity and employee development through a professional 
development program, performance management tools, and an expanded 
safety program. I am committed to addressing management issues raised 
in a recent report of our Inspector General on the U.S. Park Police.
    Complementing park operations, the 2009 budget includes a combined 
$25.0 million for Preserve America and Save America's Treasures. 
Launched in 2003 by the President and First Lady, the Preserve America 
initiative encourages States and local communities to partner with the 
Federal Government to preserve the multi-textured fabric of America's 
story. The administration has submitted legislation to the Congress to 
permanently authorize the Preserve America and Save America's Treasures 
programs. To date, 585 communities in all 50 States and the U.S. Virgin 
Islands have been designated as Preserve America communities.
    Through $9.8 million appropriated to the National Park Service 
through 2007, the program has supported 140 projects in communities 
throughout America. The 2008 appropriation will support an additional 
95 projects. The 2009 budget request includes $10.0 million for 
Preserve America grants, an increase of $2.6 million over the 2008 
enacted level. The budget also provides $15.0 million for Save 
America's Treasures grants, $4.0 million more for competitive grants 
than what was appropriated in 2008.
                        healthy lands initiative
    In 2007, the Department initiated the Healthy Lands Initiative--a 
major, long-term effort to improve the health of public and private 
lands in the West. Through the Healthy Lands Initiative, Interior 
agencies are working with State and local governments, private 
landowners and other interested groups to conserve and restore vital 
habitat. This Initiative will preserve our public lands for recreation, 
hunting and fishing, and for their significant habitat for species, 
while helping to secure energy for this Nation. The Healthy Lands 
Initiative takes, for the first time, a landscape-scale approach to 
restoration and land-use planning. The Initiative considers the health 
of the land from ridge-top to ridge-top instead of acre by acre.
    Using $3.0 million in 2007 as a model for our Healthy Lands 
Initiative, BLM funded improvements to 72,000 acres of BLM land. The 
investments improved wildlife habitat conditions on 45,896 acres of 
shrubs, grass and woodland; reduced woody fuels and improved the 
composition of herbaceous vegetation on 18,377 acres outside the 
wildland urban interface and 4,986 acres within the interface; and 
improved 580 acres of wetlands. BLM leverage this funding with partner 
investments to treat additional acres within the same critical 
watersheds on non-BLM lands.
    With Congress's support for the initiative, in 2008 we will be 
expanding these efforts to $7.9 million and improving the health of 
Western landscapes impacted by drought, wildfire, weed invasions, and 
stresses associated with population growth and increased development 
and use of the public lands. The Healthy Lands Initiative will restore 
and maintain habitat for many species such as the sage grouse, a 
species almost entirely dependent on sagebrush ecosystems. Some 72 
percent of sage grouse habitat is under Federal management. The current 
range of the greater sage grouse has declined an estimated 45 percent 
from the historically occupied range, prompting recent petitions to 
list the species under the Endangered Species Act. The Initiative will 
also focus on protecting wildlife corridors as we take a holistic 
perspective in our land use planning process for energy development and 
recreation.
    The 2009 budget provides $21.9 million for the Healthy Lands 
Initiative, an increase of $14.0 million over the 2008 enacted level, 
including an increase of $10.0 million that BLM will deploy to 
accelerate and increase efforts at the original six geographic focus 
areas; expand one of the focus areas; and add a seventh focus area in 
California. The Initiative includes increases of $3.5 million for USGS 
and $492,000 for FWS to provide critical scientific support and 
complement BLM's on-the-ground conservation and restoration efforts.
                        safe indian communities
    In 2008, Interior proposed the Safe Indian Communities initiative 
to help Indian Country resist organized crime and foreign drug cartels. 
These cartels have taken advantage of the widely dispersed law 
enforcement presence on tribal lands to produce and distribute drugs, 
resulting in a violent crime rate in some communities that is 10 to 20 
times the national average.
    The 2008 enacted appropriation provided increases totaling $23.6 
million for the Safe Indian Communities initiative to increase our 
capacity to combat this growing epidemic. In 2009, we sustain this 
funding and request an additional $2.9 million, for a total Safe Indian 
Communities initiative of $26.6 million. With a cumulative investment 
of $50.2 million over 2 years, Interior will assist Tribes to suppress 
the production and distribution of methamphetamine by organized crime 
and drug cartels, address related effects including drug abuse, child 
neglect and abuse, and increase staffing at detention centers.
    In 2009, Interior will provide: (1) additional officers for law 
enforcement; (2) specialized drug training for existing officers; (3) 
public awareness campaigns for the Indian public; (4) additional 
resources to protect tribal lands located on the United States border; 
and (5) additional social workers. Combined, the 2008 and 2009 funding 
increases will put 193 additional law enforcement agents on the ground 
in targeted communities in Indian Country and invest in more training 
for the current force to more effectively combat the problem. The BIA 
will also expand the use of a mobile meth lab to train tribal police 
and others about methamphetamine labs, environmental and personal 
safety hazards, and interdiction and investigation strategies. Funding 
will target communities based on a needs analysis that looks at the 
violent crime rate, service population, and current staffing levels.
                       improving indian education
    In 2008, Interior proposed the $15.0 million Improving Indian 
Education initiative to enhance student performance in Bureau of Indian 
Education schools. As one of just two Federal school systems, the BIE 
system of 184 schools should be a model of excellence and achievement 
of the goals of the No Child Left Behind Act. Student performance, 
however, has lagged. In 2006, just 30 percent of Indian schools were 
achieving their annual progress goals. Through this initiative, the 
Department is implementing a set of education program enhancements to 
increase the number of schools reaching adequate yearly progress goals 
to 33 percent by 2009. Though we still have much work to do, our 
assessment for 2007 shows 31 percent of schools now achieving Annual 
Yearly Progress.
    The 2008 appropriation provided an increase of $24.1 million over 
the 2007 level for programs to improve student achievement. Our 2009 
budget continues the increased funding Congress provided for these 
programs and adds another $1.4 million over 2008 for certain activities 
for a total of $25.5 million. This request includes $5.2 million for 
Education Program Enhancements to restructure schools under the No 
Child Left Behind Act and for reading programs, tutoring, mentoring, 
and intensive math and science initiatives. In 2008, Congress provided 
$12.1 million for these enhancements. With the 2008 boost in funding 
and the continued $5.2 million in 2009, BIE will focus on improved 
student achievement. The budget also includes a $6.3 million increase 
in funds allocated to all schools to improve per student funding. 
Funding allocated by formula is the primary source of funding for BIE's 
170 elementary and secondary schools and 14 dormitories. This funding 
directly supports all schools for core costs of operating education 
programs such as salaries for teachers, aides, administrators, and 
support staff; supplies; and classroom materials.
    The 2009 budget increases funding for four new initiatives: Water 
for America, Birds Forever, Ocean and Coastal Frontiers, and Safe 
Borderlands.
                           water for america
    In 2007, the National Science and Technology Council reported that 
``abundant supplies of clean, fresh water can no longer be taken for 
granted.'' The Council of State Governments echoed this concern, 
concluding that ``water, which used to be considered a ubiquitous 
resource, is now scarce in some parts of the country and not just in 
the West. The water wars have spread to the Midwest, East, and South, 
as well.''
    Competition for water is increasing because of rapid population 
growth and growing environmental and energy needs. These water needs 
are escalating at a time of chronic drought and changes in water 
availability resulting from a changing climate.
    In 2009, our budget includes a Water for America initiative to help 
communities secure reliable water supplies through information, 
technologies, and partnerships. This collaborative effort, which 
involves the Bureau of Reclamation and the U.S. Geological Survey, will 
help address the water needs of the Nation.
    Knowing how much water is available--and how much we consume--lies 
at the foundation of good water management. Yet this Nation has not 
completed a water census in over three decades. Our Water for America 
initiative will fill this void. The U.S. Geological Survey request of 
$8.2 million will fund the first water census in 30 years. USGS will 
begin a nationwide assessment of water availability, water quality, and 
human and environmental water use. The census, planned for completion 
by 2019, will generate information to assist others in managing water 
in a context of competing demands. The census will provide a national 
groundwater information system, new technology that integrates surface 
and groundwater information, and better measurements that result in 
better management of water resources.
    In addition to the census, through our Water for America 
initiative, we will modernize the Nation's 7,000 streamgages. In the 
first phase of modernization, USGS will upgrade 350 streamgages and 
reinstate 50 streamgages that were shut down previously.
                             birds forever
    In June 2007, the National Audubon Society issued a report, Common 
Birds in Decline, based on analysis of the Society's Christmas bird 
counts and breeding bird surveys performed by the U.S. Geological 
Survey. The report indicated significant declines occurring in 20 
common species. On average, populations of common birds have plummeted 
70 percent since 1967.
    As manager of one-fifth of the Nation's lands, Interior, working 
with a Nation of citizen stewards, can help reverse these declines. 
Since 2004, Interior has improved the status of five migratory bird 
species. Current efforts focus on ensuring that more than 62 percent of 
the Nation's migratory bird species thrive at sustainable levels.
    On October 20, 2007, the President announced a new effort to 
conserve migratory birds. This effort included cooperative conservation 
with Mexico to protect birds that know no border, expanded migratory 
bird joint ventures, and production of a State of the Birds report. The 
Department's Birds Forever initiative builds upon the President's 
initiative.
    Madam Chairman, we appreciate your strong support for the Nation's 
National Wildlife Refuges. Our budget sustains the FWS refuge budget 
increase of $35.9 million provided by Congress in 2008. Conserving 
migratory birds is a primary goal of the Refuge System and the 
increased funding in 2008 will support migratory bird conservation and 
habitat protection. More than 200,000 acres of habitat will be 
improved, some of which will directly benefit migratory birds.
    Our 2009 budget also proposes to improve the status of wild birds, 
including migratory birds, and avert further declines in populations 
with $9.0 million in increased funding for FWS joint venture 
partnerships, inventory and monitoring, and habitat restoration 
programs and the U.S. Geological Survey's strategic habitat 
conservation and monitoring efforts such as the breeding bird survey. 
These funds, together with refuge increases, will help reverse the 
decline in bird populations by focusing on species of greatest concern 
and leveraging Federal investments through partnerships.
    The initiative targets 36 species that are part of the FWS Focal 
Species Strategy. By emphasizing these priority species, benefits will 
accrue to other species as well because they often have similar 
conservation needs and utilize the same habitats. Employing this 
strategy, FWS and USGS will improve understanding of these species, 
restore habitat, and monitor species status and trends. Through 
collaborative projects with States and others, these efforts will lead 
to improved protection of habitats that are important to these bird 
species. Interior will complete action plans for 30 focal species and 
coordinate them with State Wildlife Action Plans.
    Interior collaborative efforts with nonprofit organizations, State, 
and Federal programs through Joint Ventures will set conservation 
priorities and increase investments through extensive leveraging. 
Interior will focus on Joint Ventures along the coasts and central 
flyways including the Atlantic Coast, Texas and Gulf Coast, and Prairie 
Potholes and Playas. Working in coordination with these programs 
through the Birds initiative, States will be able to leverage their 
funds against Federal grant program dollars to target multi-state bird 
conservation priorities. The Fish and Wildlife Service has signed Urban 
Bird Treaties with cities such as New Orleans and Houston to preserve 
bird habitat in urban environments. With five treaties in place, FWS 
will sign up more cities and promote partnerships that will conserve 
parks and tree islands for bird habitat and engage the citizens in 
conservation activities.
                      ocean and coastal frontiers
    Healthy and productive oceans, coasts, and Great Lakes waters are 
vital to America's prosperity and well-being. The President's U.S. 
Ocean Action Plan sets forth a pioneering vision for ocean management 
premised on regional partnerships, State leadership, and Federal 
coordination.
    Interior has extensive ocean and coastal responsibilities, managing 
35,000 miles of coastline, 177 island and coastal refuges, 74 park 
units comprising 34 million acres, 92 million acres of coral reef 
ecosystems that include 3.5 million acres of coral reefs, and 1.8 
billion underwater acres of Outer Continental Shelf lands. Interior 
also assists the U.S. Territories and Freely Associated States in the 
management of 3.6 million square miles of oceans in the U.S. 
Territories and Freely Associated States. The Department also conducts 
the science needed to guide better decisionmaking in managing these 
resources.
    The 2009 budget request includes $7.9 million to support the 
Department's diverse ocean, coastal, and Great Lakes program activities 
and to implement the highest priorities of the U.S. Ocean Action Plan. 
Included is an increase of $4.0 million for mapping the extended 
continental shelf to assure that the United States defines the 
boundaries for these areas potentially rich in energy and mineral 
resources.
    Our budget also funds partnerships to reverse the trend of marine 
debris accumulating in waters and coasts of Midway Atoll National 
Wildlife Refuge and conserve coral reefs and improve ocean science at 
the Palmyra Atoll National Wildlife Refuge. Marine debris kills marine 
life, interferes with navigation safety, negatively impacts shipping 
and coastal industries, and poses a threat to human health.
                      safe borderlands initiative
    The Department's land management bureaus manage lands along 793 
miles, or 41 percent, of the southwest border. This includes seven 
national wildlife refuges, six national parks, lands managed by the 
Bureau of Reclamation along 12 miles of the border, and public lands 
managed by the Bureau of Land Management along 191 miles of the border. 
In addition, five Indian reservations are on the international boundary 
with Mexico.
    These remote, once pristine landscapes are home to many unique 
plants and wildlife, some of which are endangered species. However, the 
situation along our international border with Mexico has changed. In 
some locations, our employees, residents, or visitors are facing 
significant risks from illegal activities and portions of the public 
lands are closed to visitors. Employees who live on site and residents 
of Indian communities contend with the potential threat of vandalism, 
theft, and confrontation with illegal activities. Wildlife populations 
and their habitats and cultural resources are affected and damaged by 
these activities.
    Increased border enforcement in urban areas has resulted in a shift 
in the flow of illegal drugs and unauthorized people to rural areas and 
the lands managed by the Interior Department. The number of illegal 
entrants crossing public lands has increased 11-fold since 2001. 
Narcotic traffickers, smugglers, and other criminals, who operate 
extensively near the border, impact public lands and resources.
    There has been loss to human life. National Park Service Ranger 
Kris Eggle was shot and killed in 2002 at Organ Pipe Cactus National 
Monument by a drug runner. At San Bernardino National Wildlife Refuge, 
drug smugglers threatened an officer and his family at his home if he 
didn't return a load of marijuana seized earlier in the day. These are 
not isolated incidents. Interior employees are concerned that they are 
under constant surveillance by drug smugglers who establish observation 
posts on our lands and are equipped with assault weapons, encrypted 
radios, night vision optics, and other sophisticated equipment. 
Employees cannot go to some areas of some of the parks, refuges, and 
other public lands without an escort. The impacts to lands and 
resources are extensive, including abandoned vehicles and personal 
property, roads and trails through sensitive areas, and elevated 
threats to at-risk species.
    The Department is requesting an $8.2 million increase for our Safe 
Borderlands initiative to enhance safety of public land visitors, 
residents, and employees and reduce the impacts affecting Interior-
managed lands along the southwest border. The Safe Borderlands 
initiative targets resources toward multiple bureaus and high-priority 
areas. The Department will coordinate border efforts among the land 
management bureaus and the Bureau of Indian Affairs, deploying 
additional law enforcement personnel into five high-priority areas with 
the highest safety risks. We propose to focus on Interior borderland 
responsibilities, including public lands management and visitor and 
employee safety.
    We also propose to mitigate environmental damage along the 
southwest border. Trails and illegal roads made by smugglers are 
destroying cactus and other sensitive vegetation impacting the 
ecological health of many of the national parks, wildlife refuges, 
national monuments and conservation areas Interior manages. Projects 
include repairing and maintaining roads and trails on BLM lands; 
improving signage for visitors; assisting with environmental compliance 
for border infrastructure projects; removing tons of abandoned personal 
property such as vehicles from bureau and tribal lands; and closing 
abandoned mine lands on BLM lands in New Mexico and California where 
illegal aliens hide.
                  supporting the department's mission
    The 2009 budget aligns resources to achieve these and other high-
priority goals guided by the Department's integrated strategic plan. 
The Department's strategic plan links the Department's diverse 
activities into four common mission areas: Resource Protection, 
Resource Use, Recreation, and Serving Communities. A fifth area, 
Management Excellence, provides the framework for improved business 
practices, processes, and tools and a highly skilled and trained 
workforce.
    Key to attaining these strategic goals is our 2009 request for 
fixed costs. Pay and benefits for the Department's 70,000 employees are 
a significant cost component of Interior's core programs, comprising 51 
percent of operating budgets. The proportion of Interior's budget 
committed to personnel costs places it among the top three Federal 
agencies. This workforce composition largely reflects the need to 
maintain staff at the geographically dispersed locations that serve the 
public including 391 parks, 548 refuges, and 71 fish hatcheries.
    Interior's programs by their very nature require staff. Interior 
continues to utilize the services of over 200,000 volunteers and 
extensive seasonal employees. However, the workforce capacity of the 
Department's programs is an essential ingredient for the uninterrupted 
delivery of programs and services to the American public.
    The 2009 budget includes $142.5 million to keep apace with most 
increased costs in pay and benefits and other fixed costs. The pay and 
benefits component is $128.6 million, including a 3.5 percent 2008 pay 
raise, a 2.9 percent 2009 pay raise, and a 3.0 percent increase in 
health benefits. A total of $22.5 million in pay and health benefits 
costs is absorbed. There is a reduction of $16.9 million for one less 
pay day in 2009. The request fully funds nondiscretionary bills from 
others, including space rental costs and associated security charges; 
workers compensation and unemployment compensation; and centralized 
administrative and business systems, services, and programs financed 
through the Working Capital Fund.
                        other budget priorities
    In addition to the initiatives already highlighted, the 2009 budget 
includes funding for programs key to achieving the Department's goals 
and objectives.
    Cooperative Conservation Programs.--Through partnerships, Interior 
works with landowners and others to achieve conservation goals across 
the Nation that benefit America's national parks, wildlife refuges, and 
other public lands. The 2009 budget includes $321.7 million for the 
Department's cooperative conservation programs, $10.4 million more than 
the 2008 enacted level. These programs leverage Federal funding, 
typically providing a non-Federal match of 50 percent or more. They 
provide a foundation for cooperative conservation to protect endangered 
and at-risk species; engage local communities, organizations, and 
citizens in conservation; foster innovation; and achieve conservation 
goals while maintaining working landscapes.
    Challenge cost share programs in FWS, NPS and the Bureau of Land 
Management are funded at $18.1 million. These cost share programs 
provide resources to land managers to work with adjacent communities, 
landowners, and other citizens to achieve common goals through 
conservation and restoration of wetlands, uplands, riparian areas and 
other projects.
    The 2009 cooperative conservation budget incorporates the 
Department's $21.9 million Healthy Lands initiative. Building on the 
$7.9 million enacted in 2008 for Healthy Lands, the 2009 budget 
increases resources for this multi-agency initiative to enlist States, 
local and tribal governments, industry and non-government entities to 
restore habitat on a landscape scale.
    The 2009 budget for FWS cooperative conservation programs proposes 
$14.9 million for the Migratory Bird Joint Ventures program, including 
an increase of $4.0 million to focus on improving the status of focal 
species of birds as part of the Migratory Bird initiative. The 2009 
budget also includes $13.2 million for the Coastal program, $48.0 
million for the Partners for Fish and Wildlife program, $4.9 million 
for the Fish Passage program, and $5.2 million for the National Fish 
Habitat Action Plan.
    The 2009 request for cooperative conservation programs includes 
$195.9 million for FWS grant programs, an increase of $1.9 million. 
This includes $42.6 million for the North American Wetlands 
Conservation Fund, an increase of $666,000 above the 2008 enacted 
level. The 2009 budget for the Cooperative Endangered Species 
Conservation Fund is $75.5 million (including $80.0 million in new 
budget authority reduced by a cancellation of $4.5 million in 
unobligated balances). This request is an increase of $1.7 million 
above the 2008 level. The 2009 budget includes $4.0 million for the 
Neotropical Migratory Bird program, a reduction of $470,000 from the 
2008 level, and $73.8 million for the State and Tribal Wildlife Grant 
program, sustaining the 2008 funding level.
    Enhancing Energy Security.--The Interior Department helps to meet 
the Nation's energy needs and ensure energy security. Roughly one-third 
of the energy produced in the United States each year comes from 
Federal lands and waters managed by Interior. Interior's 2009 budget 
enhances energy security with a program that seeks to increase 
production while achieving important environmental protections, 
attaining energy conservation goals, and expanding the use of new 
technologies and renewable energy sources. The 2009 budget provides 
$528.1 million for energy-related programs, an increase of $15.1 
million over the 2008 enacted level.
    The BLM will continue to support implementation of Section 349 of 
the Energy Policy Act to address the environmental risks posed by 
legacy orphaned wells. The 2009 request includes an increase of $11.2 
million for the remediation of the Atigaru site on the Alaska North 
Slope. In addition, BLM will increase its capacity for conducting oil 
and gas inspections in 2009.
    In 2009, as in 2008, legislation is proposed to repeal the permit 
processing fund and the prohibition on charging cost recovery fees for 
processing applications for permits to drill. Estimated cost recovery 
collections for Applications for Permit to Drill are $34.0 million in 
2009, an increase of $13 million from the 2008 proposed level. The 2009 
budget relies on permanent legislation to allow cost recovery for APDs, 
rather than the $4,000 APD fee included in the 2008 Consolidated 
Appropriations Act.
    In 2009, MMS will apply $8.5 million to increase environmental 
studies, resource assessments, and leasing consultations in areas of 
new leasing activity in Alaska and the Gulf of Mexico as identified in 
the 2007-2012 Five Year Plan. These lease sales could produce as much 
as 10 billion barrels of oil and 45 trillion cubic feet of natural gas 
over the next 40 years, enough energy to heat 47 million homes for 40 
years. With an additional $1.0 million, MMS will implement its 
alternative energy responsibilities by funding environmental work and 
permitting for offshore alternative energy projects. This increase 
builds on the increased funding level provided in 2008 for alternative 
energy and provides a total funding level of $6.6 million.
    The MMS will also use a $1.1 million increase to improve its 
information technology system to keep pace with industry's use of 
geoscientific analysis of resources and ensure that lease bids meet 
their fair market value; provide $2.0 million for improvements to 
mineral revenue compliance operations; and apply $1.7 million to 
implementing automated interest billing, allowing MMS to streamline and 
expedite interest invoicing, enhance internal controls, reduce manual 
intervention, allow the closure of audit cases sooner, and redirect 
staffing to other high-priority projects.
    Climate Change.--With lands that range from the Arctic to the 
Everglades, Interior's managers are observing the sometimes dramatic 
effects of a changing climate, including melting permafrost and melting 
glaciers, apparent long-term changes in precipitation patterns, dust 
storms, and sea level rise. In this dynamic context, Interior managers 
need the information, tools and resources to understand on-the-ground 
landscape changes and develop strategies to adapt to these changes. As 
one of the largest land managers in the world, Interior is positioned 
to pioneer adaptive management approaches to address the effects of 
climate change.
    Interior's science agency, the U.S. Geological Survey, has been an 
active participant in the Federal Global Climate Change Science 
project. In 2008, the Congress provided an increase of $7.4 million to 
expand high-priority research and establish a National Global Warming 
and Wildlife Science Center.
    Work has begun to examine the most pressing issues faced by land 
managers, including the impacts of melting permafrost on energy and 
other infrastructure, modeling of watersheds to better manage timing 
and delivery of water by taking into account changing precipitation 
patterns, and investigation of the potential for geologic formations to 
sequester carbon. Interior has also undertaken habitat restoration to 
promote carbon sequestration and has pioneered use of alternative 
energy and energy conservation in its facilities and transportation 
systems. Approximately 18 percent of Interior's facility electricity 
comes from alternative energy technologies, a ratio six times greater 
than required for the Nation in the Energy Policy Act.
    The 2009 budget for the U.S. Geological Survey continues its 
climate change program of $31.4 million, sustaining $5.0 million of the 
increases enacted in 2008 by the Congress. The 2009 budget will focus 
on priority climate change needs to fill critical information gaps. The 
2009 budget and the Department's climate change management priorities 
will benefit from the results of the Secretary's Task Force on Climate 
Change. The three subcommittees that comprise the task force will guide 
Interior's comprehensive approach to the study and modeling of the 
impacts of climate change on lands, waters, and wildlife, as well as 
guide adaptive management programs for the Department's land managers.
    Indian Trust.--From 1996 through 2008, the Department will have 
invested $4.4 billion in the management, reform, and improvement of 
Indian trust programs. These investments have allowed Interior to 
better meet fiduciary trust responsibilities, provide greater 
accountability at every level, and operate with staff trained in the 
principles of fiduciary trust management. The 2009 budget proposes 
$482.3 million for Indian trust programs. This amount includes a net 
program increase of $2.9 million over the 2008 enacted budget. The 2009 
Unified Trust Budget reflects savings from the completion of certain 
trust reform tasks as well as new investments in probate services.
    The 2009 budget of $482.3 million for Indian trust programs 
includes $181.6 million in the Office of the Special Trustee and $300.7 
million in the Bureau of Indian Affairs. The budget for Office of the 
Special Trustee includes $125.2 million for operation of trust 
programs, an increase of $1.2 million above the 2008 level. The 2009 
budget proposal includes $56.4 million to support the Office of 
Historical Trust Accounting. The Office of Historical Trust Accounting, 
which is included in the Unified Trust Budget, plans, organizes, 
directs, and executes the historical accounting of 365,000 Individual 
Indian Money and Tribal Trust accounts. The OHTA expects to allocate 
approximately $40 million to historical accounting for individual 
Indian accounts, with the balance used for tribal trust accounting.
    The remainder of the funding supports work on tribal trust cases, 
for a total of $16.4 million. At present, there are 102 tribal trust 
lawsuits, including a class action case seeking certification of a 
class of over 250 Tribes. The workload associated with these cases 
includes tribal reconciliation reports, document production, data 
validation, litigation support, analyses of mismanagement claims, 
historical accountings, and settlement negotiations.
    The 2009 BIA budget provides $300.7 million to meet the 
requirements outlined in the Fiduciary Trust model and continue trust 
reform initiatives, including a funding increase of $10.6 million that 
will address a number of priority activities including the probate 
backlog.
    The 2009 budget also includes an increase $2.6 million for BIA and 
OST to meet the ongoing demand for probate services, while continuing 
to reduce the excess probate caseload. This funding increase will also 
support the Office of Hearings and Appeals and their role in resolving 
probate cases.
    The 2009 budget reduces funding by $9.8 million and eliminates the 
Indian Land Consolidation program. Although the program is terminated 
in 2009 the Department will explore other options for addressing the 
critical issue of fractionation.
    Financial and Business Management System.--The Financial and 
Business Management System, an enterprise-level, integrated, 
administrative management system, is replacing the Interior 
Department's existing legacy systems. When fully implemented, the 
project will support the business requirements of all Interior bureaus 
and offices including core accounting, acquisition, personal property 
and fleet, travel, real property, financial assistance, budget 
formulation, and enterprise management information.
    In 2006, the Minerals Management Service and the Office of Surface 
Mining were successfully migrated to the Financial and Business 
Management System. These bureaus are now conducting financial and 
accounting operations on this new system. In 2007, the acquisition 
module was deployed to MMS and OSM. In 2008, the Department anticipates 
that it will deploy core financial, acquisition, property, and grants 
components of FBMS to BLM. The 2009 budget request of $73.4 million 
includes an increase of $33.3 million for additional deployments that 
will eventually allow the Department to retire duplicative legacy 
systems currently in operation, including 27 acquisition systems, 16 
finance systems, 43 vendor databases, and 107 property management 
systems.
    Payments in Lieu of Taxes.--PILT payments are made to local 
governments in lieu of tax payments on Federal lands within their 
boundaries and to supplement other Federal land receipts shared with 
local governments. The 2009 budget proposes $195.0 million for these 
payments, an increase of $5.0 million over the 2008 President's budget, 
reflecting an adjustment to keep abreast of inflationary cost 
increases.
                         legislative proposals
    The 2009 budget is accompanied by legislative proposals that will 
affect receipt or spending levels in 2009 or in future years. These 
proposals will be transmitted to the Congress for consideration by 
authorizing committees.
    Many of these legislative changes were presented in the 2008 
President's budget, including proposals for: full payment of bonuses on 
all new coal leases at the time of lease sale, modification of the 
Federal Land Transaction Facilitation Act, net receipts sharing for 
energy minerals, discontinuation of the mandatory appropriation from 
the BLM Range Improvement Fund, reallocation of the repayment of 
capital costs for the Pick-Sloan Missouri Basin program, and 
authorization for the San Joaquin River Restoration settlement.
    The budget also assumes the enactment of legislative proposals to 
repeal provisions of the Energy Policy Act related to permit 
processing, geothermal revenues and geothermal payments to counties, 
and ultra-deepwater research. The budget assumes enactment of 
legislation that would open the 1002 area of the Arctic National 
Wildlife Refuge to exploration with lease sales to begin in 2010, 
generating estimated bonus bids of $7 billion in 2010 and future 
streams of revenue from royalty collection once production commences.
    The 2009 budget assumes enactment of legislation to provide a new, 
dedicated source of funding for the Centennial Challenge providing up 
to $100.0 million per year for 10 years of mandatory funding to match 
contributions for projects and programs that will fulfill the 
commitment to prepare parks for their next century.
    The 2009 budget also assumes enactment of legislation to authorize 
an increase in the price of the Federal duck stamp. The price of the 
stamp has remained at $15.00 since 1991. At the same time, the price of 
land has increased significantly in the past 17 years. The Duck Stamp 
fee increases will generate more revenues to support the acquisition of 
fee title and easement areas that would provide 17,000 additional acres 
of important breeding, migration resting, and wintering areas for 
birds.
    The 2009 budget proposes to cancel $5.0 million from multiple 
accounts, as the balances have remained unused for some time. The 
budget proposes to cancel $24.7 million of balances in the Naval Oil 
Shale Reserve Account that are excess to the estimated remediation 
costs and to cancel $4.5 million in the Cooperative Endangered Species 
Fund for uncommitted funding that was recovered from funds surplus to 
project needs.
    The 2009 budget proposes $34.0 million in increased cost recovery 
fees for the Bureau of Land Management oil and gas program and 
estimates an increase of $11.0 million in offsetting collections from 
rental receipts and cost recovery fees by the Minerals Management 
Service's OCS program.
                               conclusion
    Our 2009 budget will--in its entirety--make a dramatic difference 
for the American people. We will continue efforts to improve our 
national parks, protect our wildlife and its habitat, and make 
investments in Indian Country for safe communities and Indian 
education. In addition, we will help communities address water supply 
needs, conserve wild birds and ocean resources, improve the safety of 
public lands along the border for employees and visitors, and continue 
to address other ongoing mission priorities. We look forward to working 
with the Subcommittee on these challenges this year. Just as we did in 
2008, I feel confident that we can collaboratively craft a 2009 budget 
for this Department that will address all of the priorities I've 
discussed. This concludes my overview of the 2009 budget proposal for 
the Department of the Interior and my written statement. I will be 
happy to answer any questions that you may have.

    Senator Feinstein. Let me see. The order will be after my 
questions, Senator Allard. Then it will alternate. Senator 
Nelson, Senator Craig, Senator Alexander, and Senator Cochran.

                         RURAL FIRE ASSISTANCE

    I think one of the things that I find really objectionable 
in the budget is the zeroing out of the $6 million for the 
wildland fire grants. When I left the office, Mr. Secretary, 
CNN was on my television, and it said a wide swath of the 
United States is under threat of catastrophic fire. I think to 
cut these grants right now is really a mistake.
    My understanding is you are taking that money and you are 
putting it in the Healthy Lands initiative. You are proposing a 
Birds Forever by taking money away from initiatives to protect 
native fish, and we have just had the entire salmon run 
collapse in Oregon and California.
    So why are you singled out for the elimination of rural 
fire assistance grants?
    Secretary Kempthorne. Madam Chairman, it is a very fair 
question. We do have a very close cooperative working 
relationship with the U.S. Forest Service where they provide 
many of the same programs. We do retain grants that help us 
with the training. We utilize funds from the preparedness 
budget to do so.
    You are right about the devastation of these fires. You 
experienced them firsthand when I called you in October and we 
talked about the Santa Ana winds that were whipping up, and 
where we were able to anticipate that, pre-deploy our assets, 
rolling stock, aircraft, and personnel and were able to make 
the best of a very bad situation.
    We do use it for the Healthy Forest initiative because if 
we can continue to thin these forests, if we can remove the 
fuel load, that is going to save not only acreage but lives and 
certainly lives of the fire fighters.
    Senator Feinstein. Yes, but for me it is a catch 22. I want 
the Healthy Lands money, but I also want the wildland fire 
protection money. So if you take one from the other, you 
essentially diminish both. At least, that is my view on it. So 
I just want you to know up front that is a real problem for me.

                            ABANDONED MINES

    Another problem in California is we have roughly 47,000 
abandoned mines, and 13,000 are on lands managed by the BLM. 
Thousands have safety or water quality hazards. Last month I 
introduced a bill, the Abandoned Mine Reclamation Act. It 
created an abandoned mine cleanup fund, but unlike the House 
bill, it has three sources of revenue for that cleanup. I added 
$1.9 million in the 2008 bill to help BLM and the National Park 
Service identify and remediate hazardous abandoned mines in 
California. Your budget request removes this funding.
    My first question is, does your Department have a 
prioritized list of abandoned mine sites on public lands?
    Secretary Kempthorne. This is a critical issue for us. I 
will get back to you if, in fact, there is a prioritization of 
mines. The categorizing and the inventorying of abandoned mines 
has been occurring by the BLM and by the National Park Service.
    Senator Feinstein. Well, I would like to ask you to do a 
prioritized list, and I would like you to share it with this 
committee. I mean, I think we are entitled to know where 
abandoned mines on public lands create real hazards for people 
who use those public lands.
    Secretary Kempthorne. Yes. Madam Chairman, the National 
Park Service--I believe it was five abandoned mines they 
addressed based on funds that you provided in the current 
budget last year.
    Senator Feinstein. Right. But you removed the funding.
    Secretary Kempthorne. Yes.
    Senator Feinstein. Why is that?
    Secretary Kempthorne. In most cases, Madam Chairman, where 
there were additions by Congress, we had to remove those 
earmarks.
    Senator Feinstein. Why?
    Secretary Kempthorne. To remain within the budget that was 
given as the guidance by the administration.
    Senator Feinstein. Well, you know, I feel if the 
administration is not going to regard our concerns of 
priorities, I do not know why we should observe theirs. I mean, 
the fact of the matter is we have got 13,000 abandoned mines on 
Interior properties in California, and people use those lands 
and we need to do something about it. So I am really concerned 
about that, and you will be hearing more.

                            U.S. PARK POLICE

    Let me go to the Park Police. The IG's report stated, 
``Park Police have failed to adequately perform either mission, 
either protecting the national monuments or functioning as an 
urban police department.'' So this has resulted in deficient 
security at national icons and monuments.
    My understanding is you do have money in the budget for 
that, for additional police officers. Your current staffing is 
590. You request an additional $4.7 million so you can increase 
staffing by 36. How many of those 36 will be sworn officers, 
and how many are administrative?
    Secretary Kempthorne. I believe, Madam Chairman, that those 
officers will be sworn officers.
    Senator Feinstein. So all 36 of your new people will be 
sworn officers.
    Secretary Kempthorne. Yes. I will tell you that it will 
take a little bit of time to achieve this. We are adding 12 new 
officers this month. We are then putting 15 more in the Federal 
Law Enforcement Training Center. The goal is that by the end of 
2009, we will have 630 sworn officers. Our objective is to 
reach 639 sworn officers, which we believe can be accomplished 
at the beginning of 2010.

                                 SALMON

    Senator Feinstein. All right. If I can quickly, I would 
like to go to the Pacific Fisheries Council recommendation for 
a complete closure of the Oregon and California salmon fishery 
for the first time in 150 years. News articles suggest that 
part of the problem may be deteriorating ocean conditions 
caused by climate change.
    What is your finding? What is the cause of this?
    Secretary Kempthorne. Well, Madam Chairman, we have been 
working with NOAA and the National Marine Fisheries Service, 
which has jurisdiction for this. There has been an 
identification at this point that conditions in the sea which 
provide the food source for the salmon are one of the key 
factors. There is continuing discussion as to what may be the 
reason for all of that, but it is the jurisdiction of the 
National Marine Fisheries Service. We will continue to work 
with them.
    Senator Feinstein. I would hope you would. I would hope you 
would take a major role. I mean, fishing on our coasts is an 
important industry. It is estimated that this disaster is $150 
million. People lose their homes. They lose their boats. They 
lose everything because they cannot make payments. They have no 
job. So I would just like to request that Interior play a role 
in really delving into this and coming up with some solutions--
--
    Secretary Kempthorne. Yes.
    Senator Feinstein [continuing]. Or I think we are in deep 
trouble with respect to fish.
    Secretary Kempthorne. It is very serious, and I am very 
familiar with it, as Senator Craig would be as well from the 
State of Idaho, because we too have the salmon fish runs. It is 
an issue that we have been working on for some years.

                            U.S. PARK POLICE

    Madam Chairman, perhaps before we leave this hearing, I 
could address a little further about the Park Police.
    Senator Feinstein. Certainly. My time is expired. Let me 
turn to the others and then on the second round, if it is 
agreeable with you, we will go to the Park Police first up.
    Secretary Kempthorne. That would be great. I appreciate it.
    Senator Feinstein. Senator Allard.

                            NAVAL OIL SHALE

    Senator Allard. Thank you, Madam Chairman. Mr. Secretary, I 
would like to go first to the Naval Oil Shale question.
    Secretary Kempthorne. Yes.
    Senator Allard. In the President's budget, you requested a 
proposal to cancel $24.7 million of balances in the oil shale 
reserve. Now, this is money over and above what it would take 
to clean up the Anvil Point area and cleanup costs in that 
particular area. I oppose it. In my view, those funds are--at 
least the half that represents the royalties that would be paid 
under the Mineral Leasing Act belongs to the State of Colorado. 
This has been provided for in legislation that was passed by 
the Congress.
    The Naval Oil Shale restoration account fund is growing at 
the rate of $2 million per month, and royalties are not being 
paid to the State only because the Department of the Interior 
has dragged their feet in the certification of those funds to 
clean up the site. I believe that everyone now acknowledges 
that there are more than enough funds in the account to do the 
cleanup.
    I would like to have you tell me when you would expect to 
be able to certify this site so that Colorado can start 
collecting its fair share of royalties being generated at the 
Naval Oil Shale Reserve, which we also share with the Federal 
Government, by the way.
    Secretary Kempthorne. Senator Allard, I appreciate working 
with you on this issue. As you know, there was a key point in 
January this year when the State of Colorado agreed with the 
cleanup proposal by the Federal Government, by the Bureau of 
Land Management. I sent you and Senator Salazar and Governor 
Ritter letters on this. It allows us to now move forward.
    We anticipate that by June of this year, we can have a 
contract let that would then allow us to go forward with the 
actual cleanup. We believe that in this fund will be sufficient 
monies to cover that cleanup.
    I must say specifically to the $24 million that you are 
referencing, the Solicitor's interpretation of the law passed 
by Congress does not provide for that to be distributed to the 
State of Colorado because it is to begin distribution of funds 
to Colorado once certification begins on prospective collection 
of monies. That is the determination of what the law currently 
reads.
    Senator Allard. Well, we have had some discussion on their 
interpretation on certification, and we will probably continue 
to have that discussion. I think if you look at the intent, I 
think the intent of the legislation is pretty clear. I frankly 
feel that their interpretation does not match with the rest of 
the language.
    I guess I still need an answer. You have let the contract--
you are letting out in June.
    Secretary Kempthorne. Yes.
    Senator Allard. So then does this immediately lead to 
certification once that contract is let? When does 
certification occur after the contract is let?
    Secretary Kempthorne. There would be additional elements, 
details that would have to be worked out, but we are going to 
move expeditiously so that we can achieve that certification.
    Senator Allard. So you cannot give us a time specifically 
when you think they would. So you are saying that letting the 
contract is the first step. There are several steps after that, 
and we do not know what is going to happen on those steps. That 
is my concern.
    Secretary Kempthorne. Right. Senator, I would say letting 
the contract is probably not the first step. The identification 
of the game plan of how to clean this up, and then to have the 
State of Colorado agree in January with that proposed cleanup 
was a huge step. I believe we can now move expeditiously and 
get you to the point that you have certification.
    Senator Allard. Well, we will continue to push you on that 
particular issue, Mr. Secretary. I will continue to make a 
nuisance of myself I guess.
    Secretary Kempthorne. Well, it is no nuisance because I can 
understand where you would be coming from.
    Senator Allard. Well, thank you.
    As you know, there is a planned lease sale by BLM on the 
Naval Oil Shale Reserve this summer that could bring in as much 
as $1 billion in bonus bids. If certification has not happened 
by that point, the State of Colorado, in effect, will lose $500 
million, and this is simply not acceptable. I just want to have 
your assurances from the Department that you will continue to 
work on this issue so that we can get this resolved prior to 
the lease sale.
    Secretary Kempthorne. Senator, you have my assurance.
    Senator Allard. There is a good bit of urgency here.
    Secretary Kempthorne. I fully respect that and understand 
it.
    Senator Allard. Thank you.

                   APPLICATIONS FOR PERMITS TO DRILL

    On the backlog of applications for permits to drill, I have 
been hearing from many energy companies throughout the interior 
of the West that it is taking longer and longer to get their 
applications for permits to drill approved by the BLM. This is 
particularly frustrating to me. I do not like increasing fees 
particularly, but we increased fees, allowed that to $4,000 
last year, and we have put this in place. Now with the increase 
in fees, they are complaining that they are getting slower and 
slower service and things are being dragged out, which I think 
the anticipation was that if you increased the fees, there 
would be more employees and there would be a quicker processing 
of their permits.
    What are you doing to address this backlog that is 
happening?
    Secretary Kempthorne. Senator, your characterization of 
dragging their feet I would not concur with. BLM is doing 
everything that it possibly can. I will give you a sense. Over 
the last 7 years, BLM has processed over 47,000 APD's and 
approved over 39,000 APD's. APD's processed have increased from 
a low of 2,300 in 1999 to an all-time high in 2007 of nearly 
9,000. It is a sheer number of APD's that we are dealing with 
as opposed to just a static line that remains flat. It is the 
increased APD's, but we are doing all that we possibly can.
    The 2009 budget seeks cost recovery of a higher fee. 
Funding will be retained by BLM for these APD's.
    Senator Allard. I see. Okay.
    Now, how many people are you anticipating that you are 
going to be needing to handle the workload that you have now?
    Secretary Kempthorne. I do not believe, sir, that we are 
adding any personnel.
    Senator Allard. Do you need to?
    Secretary Kempthorne. We will examine that again, but at 
this point we are not requesting that.
    Senator Allard. So how can we speed up the process if we 
are not hiring more people? What is being done by the 
Department to have that happen?
    Secretary Kempthorne. It would be possible to make 
modifications in the information that is provided and look at 
what the long-term plan would be. We can evaluate information 
on the employees at BLM.
    Senator Allard. I would assume that you have some offices 
that are facing a greater workload on applications than other 
offices.
    Secretary Kempthorne. We are.
    Senator Allard. So it is a difference in having personnel 
on hand to process in those cases, is it not? So for those 
offices that are being pushed so hard because of oil and gas, 
just changing the processing and everything else does not seem 
to help them. How do you help them out?
    Secretary Kempthorne. Well, we will examine that, but 
again, at this point from BLM, I have no request for additional 
personnel.
    Senator Allard. Well, we would like to talk to you about 
that so we fully understand how these applications are being 
processed.
    My time is expired. Thank you, Madam Chairman.
    Senator Feinstein. Thank you, Senator.
    Senator Nelson.
    Senator Ben Nelson. Thank you, Madam Chair.
    Mr. Secretary, it is good to see you. I would like to have 
you confirm that in your position, you get to hunt and fish 
anywhere in the country on company time.
    Secretary Kempthorne. As long as I buy a license.
    Senator Ben Nelson. As long as you buy a license. All 
right.

                     PLATTE RIVER RECOVERY PROGRAM

    Last fall, the Senate passed what is called the 
Consolidated Natural Resources Act, which contained the Platte 
recovery implementation program. I am hopeful that the House is 
going to be able to pass it soon and that the President will 
sign the bill so that we can begin to move forward with this 
program. If it gets signed into law soon, it authorizes over 
$157 million for the Department to carry out its provisions, 
whereas I believe in the Department's budget, there were only 
about $11 million provided.
    So my question is, in terms of priority, if this bill is 
signed into law, will the Department be able to aggressively 
pursue the content of the legislation on behalf of this 
recovery of a very important and vital river in our country, 
the Platte River?
    Secretary Kempthorne. Yes. Senator, that is our full 
intent. We have been very supportive of the agreement that had 
been reached.
    Senator Ben Nelson. Including the invasive species, as well 
as water flow issues and hydrologic issues as well?
    Secretary Kempthorne. Yes.
    Senator Ben Nelson. The entire picture of the recovery that 
we would like to see. We hope that that is a high priority 
within the Department.
    Secretary Kempthorne. Yes. Senator, again, when you speak 
of invasive species, that is critical. The proliferation of 
these species and then the loss of habitat, the loss of the 
native plants, native aquaculture.
    Senator Ben Nelson. The consumption of water that the 
invasive species involve as well.
    Secretary Kempthorne. Correct.
    Senator Ben Nelson. Okay. Well, we will be watching. It may 
not all happen under your watch because of the time frame, but 
we certainly hope it gets started under your watch.

                 SPECIES CONSERVATION ON PRIVATE LANDS

    Last year, regarding the species conservation on private 
lands, the landowner incentive program was eliminated. The 
focus of that program was to help landowners become involved in 
species conservation on their lands, and while eliminated, the 
committee did direct the Department to work with the States to 
develop a new grant program as part of State and tribal 
wildlife grants that would direct funding to species 
conservation projects on these private lands.
    Now, the Fish and Wildlife Service requested flat funding 
in their fiscal year 2009 budget for State and tribal wildlife 
grants. Obviously, that concerns me that while we directed the 
Department to move on these private conservation matters, Fish 
and Wildlife seems to have taken a different approach or at 
least have not provided funding that would satisfy, in my 
opinion, that they take this seriously or that it is a priority 
for them.
    Secretary Kempthorne. Senator, it is taken seriously 
because it is a good program. In the Department's budget, we 
have a variety of grants which we believe through other 
programs, we can still provide the objectives of the program. 
It is just a different set of funding sources.
    Senator Ben Nelson. Well, but is it a bigger pie or is it 
just the same pie that is going to be cut into smaller pieces 
now?
    Secretary Kempthorne. I would say that it is at the same 
level. We have been able to at least hold the same level in a 
time of budget constraint, but without loss.
    Senator Ben Nelson. What assurances can we have that we 
will see the money directed to the States and to the tribal 
lands or whether the grant requests that are put in will truly 
have that high priority that this committee has given them?
    Secretary Kempthorne. Well, Senator, I would be happy to 
work with you on determining how you would like to have that 
communique.
    Senator Ben Nelson. Because you can say that the money is 
available. Then, of course, the other priorities will prevail. 
Unless this is given a high priority, we cannot be sure that 
there will be that priority by the bureaucracy.
    Secretary Kempthorne. Senator, I understand what you are 
saying. Just to affirm, it is a good program. It is achieving 
some very fine results. These are competitive grants among the 
States, but the funds are there. I would be happy, again, 
Senator, with your experience as Governor, to work with you on 
this.
    Senator Ben Nelson. Well, with our experience as Governor, 
we understand the bureaucracy. The we be's. We be here when you 
come. We be here when you go.
    That is what we want to overcome and make sure that this 
does have that high priority.
    Secretary Kempthorne. Right.
    Senator Ben Nelson. Thank you, Mr. Secretary.
    Secretary Kempthorne. Thank you, Senator.
    Senator Feinstein. Very good, Senator. Thank you very much.
    Senator Craig.
    Senator Craig. In fact, Madam Chair, I would suggest that 
oftentimes the Senate says that of administrations. We be here 
when you come. We be here when you go.

                              INITIATIVES

    Let me approach it from a slightly different angle because 
I love the artistry of your words, Mr. Secretary. Here with 
your budget you call these initiatives. In fact, you speak of 
four new initiatives, and you fund them from what were once 
Senate earmarks. Might we call those administrative earmarks, 
those new initiatives?
    I think, Madam Chair, we ought to turn our phrase a bit and 
suggest that we have a variety of initiatives. In fact, many of 
us who lecture on this issue might suggest that we only gave 
you the authority to be here and present a budget less than 40 
years ago, and constitutionally that responsibility rests 
solely with the Congress and not with the executive branch of 
Government.
    So we do appreciate your initiatives and the artistry of 
your words, but we have noted that you have funded them by 
defunding Senate initiatives. Now, that is simply rhetoric, Mr. 
Secretary. I want to be kind to you for the balance of my time, 
but I was sitting here listening to the artistry of those 
marvelous words and not in any way questioning the validity of 
the concepts and the programs as it relates to oceans, as it 
relates to birds, certainly as it relates to the kinds of 
initiatives you have launched in Indian country. This committee 
has not disagreed with any of them.
    So may I suggest, Madam Chair, that there is so much to do 
and so little money? What we have is, on the other hand, the 
taking from the other hand. That in itself is a bit of a 
frustration.
    Secretary Kempthorne. May I respond?
    Senator Craig. Well, okay.
    Senator Feinstein. Before you do, Mr. Secretary, do you see 
the sensitivity of this?
    Secretary Kempthorne. Of course.
    Senator Feinstein. We feel we are equals in the budget.
    Senator Craig. Oh, no, that is not true constitutionally, 
Madam Chair. Uphold your responsibility.
    Senator Feinstein. So it is very difficult when this kind 
of thing happens.
    Secretary Kempthorne. You can, I hope, appreciate that I 
used to sit up there and I remember asking an administration 
about the budget, so I understand where you come from.

                                EARMARKS

    On the part of earmarks, this process is as you described 
it to be. We do not have the opportunity to add earmarks after 
the process. Many of the earmarks that you have provided--for 
example, on the initiatives of 2008, you plused-up Indian 
country. The administration retained those and is now 
recommending additions to that. With regard to the parks, the 
$25 million, that was tremendous. The refuges which, Madam 
Chairman, you referenced. We have retained those because it was 
a committee process, and it was building upon a budget which 
the administration had proposed to you. I do not believe that 
we are taking from your earmarks and simply putting on it the 
name ``administration earmarks.'' These are initiatives that we 
are placing properly before the committee for your deliberation 
and your good counsel.
    Senator Craig. Well, I appreciate that. I think our 
frustration remains when you propose, as you do, in your budget 
four new initiatives in a relatively flat or declining budget. 
That money has to come from somewhere.

                              PREPAREDNESS

    Now, for example, in the area that the chairman has already 
approached, I would guess that you and the Department of 
Agriculture, the Forest Service and BLM, did not sit down and 
do this with your fire money because if you had, you would have 
both recognized substantial cuts in both Departments as it 
relates to preparedness.
    You were out, as was I, and traveled over one of the 
largest fires in the grasslands of southwestern Idaho this last 
summer. Following that, I spent a good deal of time with all of 
the parties involved. There is no question in my mind and in 
the locals' and the State's mind that had we prepared a little 
better, had local people been a little more involved, had the 
teams been in place a little more, that that fire might not 
have been as bad as it was. Nearly a quarter of the land burned 
in the country last year. A near unprecedented fire season 
happened in our State of Idaho. So preparedness is critical.
    The Forest Service has slashed its budget. You have cut 
yours substantially. You are the two primary fire agencies of 
our Federal Government. We have that cooperative tool in Idaho 
known as the National Interagency Fire Center, and yet, I am 
not quite sure I can go back to Idaho not yet knowing what the 
fire year will be--we do not yet--and suggest that we are going 
to be better off this year than we were last year.
    Take us through that scenario a little bit, if you would, 
Mr. Secretary.
    Secretary Kempthorne. Sure. Our strategy is to attack 
fires. We have a 97 percent success rate of attacking fires so 
that they do not get out of hand and become the enormous fires 
that begin to go.
    We are entering a new phase of fire behavior, much of it 
because of the 10 years of drought, and the bug infestation. 
The fuel load is there. As you know, Senator, it is not unusual 
during the summer that you may get 2,000 lightening strikes in 
a day, and to have as many resources as we have, but there are 
some fires that are going to get away.
    I would also point out that part of the budget is based 
upon the 10-year average of the fire costs. Because of the 
nature of the fires that are getting so much larger, that 10 
years still keeps some of the low numbers included. A 5-year 
view would be a different number.
    Senator Craig. I was just going to say you ought to average 
on 5 years now versus 10 because----
    Secretary Kempthorne. It would be a different number.
    Senator Craig [continuing]. The landscape has changed 
dramatically.

                                 SALMON

    My time is up. Madam Chair, let me make another comment as 
it relates to salmon and your concern and expression.
    I will get you the address of probably one of the leading 
fish scientists in the University of British Columbia's Marine 
Biology Center who a decade ago said quite simply at a time 
when Idaho and Oregon and Washington were embattled over salmon 
on the Snake and Columbia system. He said it quite simply. 
Because of the change of temperatures and ocean waters and, 
therefore, the biota and the food sources for fish, no matter 
how many young fish you send us, meaning the ocean, it will not 
send them back because the habitat has changed dramatically in 
the oceans.
    The problem is the take has not, and you have to couple it. 
We are spending as much as $300 to $400 a fish on the Snake and 
the Columbia system by ratepayers paying their power bills so 
that the fish industry can continue to fish. There is a 
subsidy. You are just not putting it in your budget. It is in 
the ratepayers' base of the public power systems of those 
States.
    Now, that is a reality that nobody wants to deal with 
because we are so frantically trying to save these fish, and 
yet we must. I suspect the science is now going to suggest that 
our oceans simply cannot sustain those populations if the take 
continues to be as large.
    I will come back for a second round. Thank you.
    Senator Feinstein. Thank you very much, Senator.
    Senator Alexander, you are up.
    Senator Alexander. Thank you, Madam Chairman.

                              STEWARDSHIP

    Mr. Secretary, you have had a very effective stewardship. I 
compliment you on it. I especially want to give you credit for 
the conceptual design of--I will give the President the credit 
for the proposal, but the Centennial Challenge. It is a 
brilliant idea. We welcome you as you are coming back to the 
Great Smokey Mountains area on April 28 to the Governor's 
Sustainable Tourism Conference for Gateway Communities. I think 
it is your third visit to the Great Smokeys in a relatively 
short period of time.
    Secretary Kempthorne. Yes, sir.
    Senator Alexander. We appreciate a westerner recognizing 
the importance of eastern national parks.
    I have two areas I would like to discuss briefly.

                    LAND AND WATER CONSERVATION FUND

    Twenty years ago, I was chairman of President Reagan's 
Commission on Americans Outdoors. One of our recommendations 
was that we use money from offshore drilling to fully fund the 
Land and Water Conservation Fund. We have never done that.
    I notice in your testimony that you talk about MMS doing 
studies in Alaska and the Gulf of Mexico that might produce 10 
billion barrels of oil, 45 trillion cubic feet of natural gas. 
Even if you take the Alaska part out, that is a lot. It 
provides, it seems to me, an opportunity here because 2 years 
ago, thanks to Senator Domenici's leadership, when we approved 
a new lease for Lease 181 in the Gulf of Mexico, we created the 
conservation royalty really for the first time to give funding 
to the Land and Water Conservation Fund from offshore drilling. 
Fifty percent went to the Feds; 37.5 to the States; 12.5 
percent to the Land and Water Conservation Fund.
    My goal is that we get the Land and Water Conservation Fund 
up to $450 million Federal, $450 million State. There is a lot, 
particularly in the East, city parks, open space, greenways, 
communities that could use that.
    My question to you is would it be possible that a part of 
the planning by the Department of the Interior could identify 
those areas where the so-called Domenici one-eighth, the 12.5 
percent, of the proposed new drilling for oil and gas in the 
Gulf of Mexico especially, or anywhere else, could go to fully 
fund the Land and Water Conservation Fund?
    Secretary Kempthorne. Senator Alexander, in fiscal year 
2009, the stateside Land and Water Conservation Fund will begin 
to receive revenue from that source.
    Senator Alexander. From Lease 181?
    Secretary Kempthorne. Correct. It is a little over $6 
million. That will continue to grow now because of this new 
formula that has been put in place. It does give us for the 
first time, as you have stated, an identified source of funds 
for the Land and Water Conservation Fund.
    Senator Alexander. Well, I would hope that in your 
planning, you could include this concept, and I would say to 
the chairman of the subcommittee that as we look ahead at the 
Land and Water Conservation Fund, here may be a source of 
royalties for it. In a way, we have the worst of both worlds 
because some of the environmentalists do not like any drilling, 
and some of the western Senators do not like any more Federal 
land. But in the East, we have a need for that. Perhaps we can 
resolve that.
    Secretary Kempthorne. Senator, to highlight what you are 
saying, I think it makes a great deal of logical sense that 
when you extract a natural resource, that a portion of the 
benefit of that is reinvested back into nature.
    Senator Alexander. That was the concept really 40 years ago 
when the Land and Water Conservation Fund was created, that 
there would be an environmental burden and an environmental 
benefit.

                  GREAT SMOKEY MOUNTAINS NATIONAL PARK

    Now, my last question would be about base funding for the 
Great Smokey Mountains National Park, which you have been very 
attentive to, and we appreciate it very much. Take four of our 
major parks that we all admire: the Smokeys, Grand Canyon, 
Yellowstone, and Yosemite. The Smokeys has twice as many 
visitors as Grand Canyon, three times as many as Yellowstone, 
about three times as many as Yosemite. It has about the same 
number of trails and roads as Yellowstone and Yosemite and more 
than the Grand Canyon. Yet, when we add all the dollars 
together, fees and Federal funding, we spend three times as 
much on Yellowstone, two times as much on Yosemite, one and a 
half times as much on Grand Canyon as we do on the Great 
Smokeys.
    Senator Feinstein. Be careful, Senator. Be careful where 
you are going.
    Senator Alexander. I know.
    If the Senator from California were--she is an eminently 
fair person. She would want all these four grand parks to 
have--it is hard for me to understand how there could be three 
times as much spending on one of these parks.
    Now, one part of the answer is the fees that the other 
three parks have. The Smokeys, of course, were given to the 
Federal Government by the States and the people under the 
express agreement there would not be an entrance fee. That was 
the deal in the 1930's. But even when you take the fee out, 
Grand Canyon, Yellowstone, and Yosemite have more of a base 
operation than the Smokeys.
    I am aware of the increase this year. We are very grateful 
for that. I have talked with Ms. Bomar about that. I would urge 
you to continue to look as an element of fairness. I do not 
want to hurt the other three parks, but the most visited 
national park by far in America is the Great Smokeys. For us to 
be spending three times as much and two times as much and one 
and a half times as much on other grand parks as we do on the 
Smokeys does not seem right to me or the people in Tennessee 
and North Carolina that I represent.
    Secretary Kempthorne. Senator, you represent an absolutely 
beautiful part of the country. The Great Smokeys, I believe, 
has the highest visitorship of any of our national parks.
    Senator Alexander. Twice as much.
    Secretary Kempthorne. In the base budget for the Great 
Smokey Mountains, other than the Grand Tetons, it actually gets 
more than Grand Canyon, Yellowstone, and Yosemite, slightly 
more than Yosemite. These are the 2009 increases.
    Senator Alexander. Well, that might be increase. Madam 
Chairman, I know my time is up, but my information is--you can 
correct me--in fiscal year 2008, the Smokeys get $18.6 million; 
Grand Canyon, $21 million; Yellowstone, $33 million; Yosemite, 
$27 million, and that is before any of the fees.
    Secretary Kempthorne. Right. Being cognizant of that, that 
is why in the 2009 base we propose beginning to raise funds to 
the Great Smokeys.
    Senator Alexander. I thank you, and I hope that interest 
continues.
    Secretary Kempthorne. Thank you.
    Senator Alexander. Thank you, Madam Chairman.
    Senator Feinstein. Thank you, Senator. We will have more to 
comment on that later.
    Senator Cochran.
    Senator Cochran. Madam Chairman, thank you.

              HURRICANE KATRINA BARRIER ISLAND REBUILDING

    Mr. Secretary, Hurricane Katrina dealt a very serious blow 
to the State of Mississippi and other gulf coast States. Since 
that hurricane hit, we have seen no construction undertaken to 
replace structures, shaded areas in the Mississippi coastal 
area on the barrier islands and on previously very popular 
sites for sunbathing, fishing, and just access to the beautiful 
outdoors in that gulf coast area.
    It is my hope that someone can be designated by the 
Department to get with Governor Haley Barbour and try to map 
out a plan for restoration and repair and rebuilding an 
appropriate number of facilities that would restore that area 
to its previous popular vacation, boating, and fishing area. I 
do not have a specific suggestion, a dollar amount of money, 
but there is no request for funding in this budget from the 
Department, and I would hope we would look at it and see what 
you think would be a fair amount to designate for that purpose.
    Secretary Kempthorne. Senator Cochran, I appreciate that 
you have identified that. I have had conversations with 
Governor Barbour. One of the things, too, that we are working 
with the U.S. Geological Survey on is to get what had been the 
footprint of the barrier islands in 1917, which is our 
baseline, because there has been a dramatic, as you know, loss 
of much of those barrier islands. That would be part of this 
whole restructuring.
    Senator Cochran. Well, I appreciate the fact that you are 
aware of the challenge we face there, and we look forward to 
working with you. We will be glad to help, through the 
appropriations process, provide the funds that we agree ought 
to be spent there.

                             HERITAGE AREAS

    One other issue I wanted to raise was the National Park 
Service's National Heritage Program. This is a program to 
identify areas where Federal funds could be used to protect, 
restore, enhance the appreciation within the National Park 
Service of sites that are important to preserve and protect for 
the benefit of future generations. I had introduced legislation 
specifically creating two heritage areas in our part of the 
country, but there is nobody at the Department we have been 
able to talk with or find to be interested in working with us.
    I would like to ask you to see if there could be some 
administrative staff of the Department designated or given the 
responsibility of helping us with this program, at least 
discussing what we could use and what would be consistent with 
the administration's policy on the National Heritage Area 
program.
    We had hoped that we would have more money. Instead of 
more, we are getting a decrease of $8 million from last year's 
enacted level, and that is a problem as far as we are 
concerned. We do not think we are going to see any progress at 
all made if we do not appropriate some money.
    Secretary Kempthorne. Senator Cochran, as you stated, the 
administration's process, is to do an analysis, a survey, and a 
study. We would be happy to work with you on that.
    Senator Cochran. Thank you very much.
    Secretary Kempthorne. Yes.
    Senator Cochran. Thanks, Madam Chairman.
    Senator Feinstein. Thank you very much, Senator Cochran.
    Senator Stevens.
    Senator Stevens. Thank you, Madam Chairman.
    Good morning, Mr. Secretary.
    Secretary Kempthorne. Good morning.

                             MARINE MAMMALS

    Senator Stevens. I am a little disturbed about the 
reduction in funding for the marine mammals program off our 
coast. For instance, there is a reduction in the monitoring of 
walrus along the Chukchi Sea coast. Yet, we have an enormous 
proposal out there to start producing oil and gas, which we 
support. But I do not know why we would reduce, actually 
eliminate, funding for the Pacific walrus.
    Can you tell us why that happened?
    Secretary Kempthorne. Senator, there is a reduction in the 
Fish and Wildlife, but the Minerals Management Service 
continues a study and then NOAA is also doing a study on the 
mammals in that area.
    Senator Stevens. All right. Well, I will check with NOAA 
then to make sure that is the case.

                            REVENUE SHARING

    I am concerned that as we go forward now with the Chukchi 
Sea development, that Alaska has not received the same type of 
revenue sharing as other coastal States have. We have provided 
revenue sharing for Florida even for Lease Sale 181 that is 
140-150 miles off their shore. We have got revenue sharing for 
Louisiana and Texas, and Alaska has two-thirds of the outer 
continental shelf of the United States and no development 
primarily because there continues to be opposition since there 
is no funding that would come to the State from development off 
our shores.
    Can the Department change its position on revenue sharing? 
It seems to me if we had revenue sharing, we would have a 
greater support base from Alaskans for development off our 
shores.
    Secretary Kempthorne. Senator Stevens, I think it is a 
sound concept, which you have identified. With the revenue 
sharing that currently takes place in the Gulf Coast, I think 
that continues to incentivize the States. As you know, in the 
5-year plan, we have now included the State of Virginia. I 
think absent revenue sharing, I do not know that Virginia will 
pursue offshore development, but with revenue sharing, I think 
it does provide a great incentive. I think it also, as Senator 
Alexander has pointed out, is an opportunity for funds that can 
be directed toward the Land and Water Conservation Fund.
    Senator Stevens. We would be pleased to have some direction 
over the funds, and I personally would like to see part of it 
directed--the State's share of revenue sharing be directed to 
indigenous people along the coast who face the greatest risk 
and really need funds. If you are not going to manage the 
walrus and keep track of the walrus, they would. They certainly 
would keep track of all the mammals since they depend on them 
so heavily.
    But I would hope that you speak up as a member of the 
cabinet for revenue sharing for the State of Alaska. I do not 
think you are going to have oil and gas development off our 
shores until we get it. Frankly, there are so many people up 
there opposed to oil and gas development, with the risks 
involved and based upon their memories of the Exxon Valdez 
spill, that it is just a built-in situation. Why go forward and 
have a risk unless there are some funds that are built up to 
help offset that risk?
    Secretary Kempthorne. I appreciate your point.

                              ENERGY COSTS

    Senator Stevens. I do not know how much time I have got, 
but I am really worried about the basic problem of keeping up 
with the increased cost of energy in our State. You know, we 
pay really substantially more than the rest of the United 
States for oil and gas and yet we produce substantial amounts 
of oil and gas. I really wonder somehow if there is not some 
way we can make the country understand and maybe some of the 
people at this table understand that the problem we have in the 
country, as we continue to import so much oil--and now I 
understand we are going to start importing natural gas. They 
told me last week 40 percent of our natural gas will come to us 
from offshore by 2013. Now, that is an enormous cost. At $100 a 
barrel, the 7 million barrels a day, day in and day out, 
sending money out of the country. That is what is causing the 
price of gasoline to go up. There is no investment in the 
United States in domestic resources.
    I see the President has an item in the budget for 
proceeding with ANWR. I really do not see much of a drive from 
the administration to fulfill that item in the budget. How are 
we going to get the support we need for development of 
alternative and renewable resources unless we have a cash flow 
from our own resources? Why has there not been more talk from 
the administration about this?
    Secretary Kempthorne. About ANWR in specific?
    Senator Stevens. Well, about the concept of domestic 
production.
    Secretary Kempthorne. Senator, I believe that in a variety 
of forums, it is discussed. I know that I discuss it. I know 
that Secretary Bodman, the Secretary of Energy, discusses it, 
and I know that it is discussed often at the White House.
    Senator Stevens. It is headlines today that Russia's 
production is declining and they are going to face a financial 
crisis because of it. Well, ours is gone and we face a 
financial crisis. I do not think anyone has connected our 
financial crisis here at home to the fact we are sending so 
much money out of the country to buy oil and gas we could 
produce.

                             ALASKA FUNDING

    I see my time is over. I do not want to speak beyond the 
time. I have questions here concerning the allocations to our 
State from the various functions here. From national parks, we 
have 51 million of the 78 million acres. Yet we get 2.4 percent 
of the budget. We have 76 million acres or 85 percent of the 
wildlife refuge lands. We get 8 percent of the budget. In terms 
of wildlife refuge lands, the overall concepts of the Federal 
lands, we have more than half of the Federal lands in every 
category and we have more than two-thirds of every category 
that are reserved Federal lands. Yet, we get less than 10 
percent of the money in every category.
    Why is that? Why do you allocate the budget based on 
population instead of acreage?
    Secretary Kempthorne. Well, I understand from your 
perspective why you would be concerned about that.
    Senator Stevens. My perspective. It is the people of the 
United States that go see those lands. They cannot get into 
them. There are no roads. There is no access. You have to fly 
into most of these places with a twin engine float plane. Do 
you know how many commercial twin engine float planes are left 
in my State? Three. There is no access. With the increased cost 
of flying, it is going to disappear entirely. I do not 
understand it. I think you have got to find a way to start 
working out ground access to all of this land that has been 
reserved for the public, but the public cannot get there.
    You are a great friend. I hate to speak that way to you.
    Secretary Kempthorne. That is all right. I have gotten used 
to it.
    Senator Feinstein. I did before.
    Senator Stevens. Well, I do speak that way, but I do not 
lose friendships, I hope.
    Thank you.

                                REVENUES

    Secretary Kempthorne. Senator, if I could just respond to 
that. When you consider the last sale that we had--and I 
believe it was Sale 206 in the gulf coast last month--it 
brought in record bonus bids, the highest ever in United States 
history. The Chukchi Sea, which we went forward with, which OMB 
had scored at $68 million, we actually brought in $2.66 
billion. The 205 back down in the gulf coast, we brought in 
over $9 billion in the last 6 months, moving us toward further 
energy development.
    The concerns which Senator Allard has raised about the 
Roan, but we believe that there are tremendous oil resources 
there.
    In the State of New Mexico, we believe that there--excuse 
me, North Dakota. We believe that there are tremendous 
resources.
    Part of it is we are being criticized by the pace by which 
we are proceeding with this, but we are using technology that 
has been learned from offshore oil and gas drilling. Now, 
onshore what traditionally used to be 10 acres for a wellhead, 
we are now down to a footprint of half an acre. We have learned 
from Alaska the use of ice roads so that in the spring, when 
the ice disappears, there is no footprint on the land in 
getting out to those wellheads. We are now doing the same thing 
with wooden pallets as roads onshore and then removing those 
wooden pallets once the construction is done. There has been no 
disturbance. We really are, I believe, moving as aggressively 
as we can on oil and gas development because of both our 
national security, our energy security, and our economic 
security.
    Senator Stevens. Well, our State alone can produce more oil 
than Iraq, and we spent a hell of a lot of money to protect the 
oil in Iraq, but none to make our oil available from Alaska.
    Senator Feinstein. Thank you very much, Senator. Senator 
Dorgan.
    Senator Dorgan. Mr. Secretary, thank you very much for 
being here.
    Secretary Kempthorne. Thank you.

                              BAKKEN SHALE

    Senator Dorgan. Last Thursday, we announced the USGS 
assessment of 3.6 billion barrels of recoverable oil in the 
Bakken shale formation. Some of us have worked to open up Lease 
181. We got less of that opened up than we should. The greatest 
resource in the outer continental shelf is in the Gulf of 
Mexico first, California second, and Alaska third. We do need 
to do more production, and I have legislation to open up more 
of Lease 181.
    But, Mr. Secretary, let me ask you. You and I talked some a 
while ago. I am going to ask you about some Indian issues.

                           DETENTION CENTERS

    There is an Indian jails report that you paid for by 
Shubnum Consulting. It is done, and I cannot get it. I called 
you about it, and the BIA says it is not available. We had 
testimony in the Congress last year, almost a year ago now, 
saying that it was going to be available in a matter of a month 
or 2. Then they said Christmas. Yet, the taxpayers have paid 
for that. If it is available, I want to see it. Have you been 
able to check on that and tell me why we are not able to access 
it?
    Secretary Kempthorne. Yes. Senator Dorgan, as late as 
yesterday, I have checked on this. The report, while it is 
bound, and it looks like it is a final report--there are still 
questions that are now being answered and added to this report.
    Also, it is a snapshot of the situation, but it does not 
have an implementation plan. It does not have what is the next 
step. What should we be doing in 2009, 2010, and 2011? That is 
what they are working now to identify. What does this mean, and 
therefore, what can we bring to Congress and say, here is the 
game plan.
    Senator Dorgan. But, Mr. Secretary, I think the Indian 
jails are in desperate condition, and I think this report 
probably is going to upset somebody. But if there is not a 
follow-on plan with it, why was that not part of the consulting 
contract?
    Whatever the consulting contract is and has been paid for, 
why not share it with this committee, with the Indian Affairs 
Committee? I mean, we are in the process of trying to evaluate 
what kind of resources we should allocate to Indian jails. Yet, 
I am told by the head of the BIA and you and others, well, this 
is kind of done, but for whatever reasons, we cannot see it. We 
paid for it. I would like to see it, Mr. Secretary.
    Secretary Kempthorne. Yes.
    Senator Dorgan. I would like to see it soon.
    Secretary Kempthorne. Senator, again, I will send a team up 
here.
    Senator Dorgan. Just send the report up. I forget what 
Senator Stevens said. You are a great friend of mine. But you 
know, you sent people up before. I do not want people. I want 
the report. We paid for the report, and you have it. The BIA 
and the Department of the Interior, I think, should give it to 
us. So I will wait by the mailbox for the next several days.
    Senator Feinstein. Bring your lunch.
    Senator Dorgan. We are great friends. I think he is going 
to send it this week.

                    UNITED TRIBES TECHNICAL COLLEGE

    Mr. Secretary, let me ask you a question about what is 
judged to be one of the finest Indian schools in the country. 
The United Tribes Technical College serves Indians from about 
34 States, and it has been authorized by the Congress. It has 
always been funded up until this administration took office, 
and then it fell out of the budget. I remain disappointed by 
that again this year. I mean, it is zero funding for that 
college. It is judged to be one of the really terrific Indian 
colleges in the country.
    I know you cannot do much about that. This goes to OMB, and 
they do their grading or whatever they do with budgets. Then 
they send it up to the White House, and then it gets some 
cosmetics and is sent down here. Everybody says how beautiful 
it is, at least to those that sent it.
    But I really think that zeroing out funding for the United 
Tribes Technical College makes very little sense. I mean, I 
feel the same way about the Johnson-O'Malley program, which is 
so important to Indian children across the country. So I 
understand that you have to come up here.
    The last time we had a fellow named Mike Parker come up to 
the Hill, and in a fit of uncommon candor, when asked by 
Senator Bond in another appropriations subcommittee, do you not 
think these programs are underfunded, the former Congressman 
Mike Parker said, yes, I do. I think that they are underfunded. 
The next morning he was fired. So I understand the answer you 
must give me at this point.
    But I do not want the moment to pass without telling you 
that we will almost certainly fund this tribal college. We are 
going to try to do everything we can to improve the situation 
of the tribal jails and other things. But I do regret that 
somehow in this budget process the priorities get somewhat 
skewed with those issues.
    Secretary Kempthorne. Yes. If I may, Senator Dorgan. You 
have been a champion for Indian country. I acknowledge that. 
You are a pleasure to work with.
    You and Senator McCain, a little over a year ago, when I 
met with you, asked if we would come forward with an 
administration number to try to settle the Cobell case. As you 
know, that was difficult, but we, at least for the first time 
ever, came forward with a number, which was $7 billion, in 
response to you.
    You mentioned the Johnson-O'Malley. There is also the 
tribal technical colleges program. There is the housing 
program. Johnson-O'Malley--we believe there is a funding source 
in the Department of Education that will cover that.
    We believe that on the housing, it would help 200 families, 
but that there is a program in HUD identified that would help 
them. We have made a real effort with regard to the classrooms 
of the schools, and that is why that plus-up, which you made, 
we have retained and added to that. It is $27 million to help 
in the classroom so that these kids are ready for higher 
education.
    The methamphetamine. Indian leaders say this is the second 
smallpox epidemic to hit Indian country, and so that is why we 
have made it a priority.
    We truly are addressing, with limited resources, but Indian 
country is critical. Of our four initiatives in 2008, two of 
them were for Indian country because I too believe in our role 
to help the Indians.
    Senator Dorgan. Madam Chairman, in just 30 seconds, let me 
just say this, however, about the United Tribes Technical 
College. It is a great disappointment to see, once again, zero 
funding for it because it is judged to be a remarkable and an 
effective institution that all of us should celebrate. All of 
us ought to say this is a great place. They are graduating and 
giving opportunities to so many young men and women. So my hope 
is this is the last year where we will have this complaint, and 
this wonderful school will receive the funding Congress has 
always insisted upon providing this school.
    I have overstayed my welcome here.

                              2009 BUDGET

    Senator Feinstein. No, you have not. Thank you. I think 
members of this committee agree with you. I think this is an 
unacceptable budget. I think it is going to receive change, and 
I think that we are going to work our will on this budget. So 
thank you.
    I just want to take this opportunity, because I know you 
have to leave. We will try to get as many people in as we 
possibly can. I think most people do not realize that now in 
the end of 2008, 72 percent of the monies spent went for 
entitlements and interest on the debt. Seventy-two percent. 
Twenty percent went for defense, and everything else was 18 
percent of the money that was spent.
    Now, in many respects, Mr. Secretary, you have the crown 
jewels of this country, the beauty of our parks, our 
wilderness, all of the things that people love to go to, care 
about that makes this country particularly great. My feeling is 
that people do want to spend the money that is necessary to 
protect those things.
    But we have to come to grips clearly. I hear candidates 
saying, oh, you know, I will cut all discretionary spending. 
Well, only 18 percent of what is spent is discretionary. 
Defense really is not. Ergo, you can cut 18 percent of 
everything and not solve the budget problem that this Nation 
faces. So we have got to come to grips with it.
    A quick question, if I might.
    Secretary Kempthorne. Madam Chairman, for those who wish to 
remain, I am happy to respond to your questions.
    Senator Feinstein. We can take some additional time?
    Secretary Kempthorne. Absolutely.
    Senator Feinstein. All right. Excellent.

                  MMS INFORMATION TECHNOLOGY INCREASE

    Oil and gas royalties. In the 2008 appropriation, we 
provided $2.3 million for systems improvements, and that is the 
recommendations of Kerrey-Garn, the Mineral Revenue Committee. 
Your 2009 request includes increases of $3.7 million to 
continue these ongoing enhancements and develop a risk-based 
automated compliance tool for use.
    My question to you is, does this $3.7 million complete it? 
Will it be functioning? Because $6 million seems to me is an 
awful lot of money to spend for this.
    Secretary Kempthorne. Madam Chairman, can I get back to you 
with a response on that?
    Senator Feinstein. Sure. Would you please do it before we 
do the budget, though?
    [The information follows:]
        Minerals Management Service--Minerals Revenue Management
    The Department's fiscal year 2008 and 2009 requests for MRM 
encompassed not only a risk-based compliance tool, but three additional 
system components and 8 additional FTE as summarized in the table and 
the bullets below.

----------------------------------------------------------------------------------------------------------------
Fiscal                                                            FTE                      System       Total
 year                        Initiative                         request     FTE amount     amount      request
----------------------------------------------------------------------------------------------------------------
 2008Adjustment Line Monitoring                                       4     $520,000     $420,000     $940,000
 2008Interactive Payment Reconciliation and Billing         ...........  ...........    1,450,000    1,450,000
 2009Implement OIG Compliance and Audit Recommendations               4      480,000    1,520,000    2,000,000
      including a risk-based compliance tool
 2009Improve Automated Interest Billing to Companies        ...........  ...........    1,700,000    1,700,000
                                                           -----------------------------------------------------
           2008-2009 Total                                            8    1,000,000    5,090,000    6,090,000
----------------------------------------------------------------------------------------------------------------

    In relation to the requested ongoing enhancements, the Minerals 
Revenue Management Support System (MRMSS) was designed and implemented 
between 1998 and 2001; therefore some of its design elements and 
underlying technology are approaching a decade old. Spending $5 million 
over a 2-year period on system enhancements to a major integrated 
financial system is not out of line with government and industry 
benchmarks.
    The enhancement initiatives requested for 2008 and 2009 address 
three areas of system improvement:
    1. Technology enhancements that were not yet mature or economically 
feasible in the late 1990's.
  --Interactive Payment Reconciliation and Billing Initiative.--These 
        system improvements will automate MMS's interface with its 
        customer base on numerous activities, and enhance online 
        reporting and verification capabilities, as well as enforcement 
        efforts. The funding will address an area of concern in the 
        Bureau's financial audit, as well as provide a strong return on 
        investment.
  --Improved Automated Interest Billing to Companies Initiative.--This 
        initiative continues MRM's commitment begun in 2007 and 2008 to 
        improve the timeliness and efficiency of the interest 
        assessment to payors by implementing system enhancements to the 
        MRMSS interest module.
    2. Implementation of new legislation that was not an initial 
priority in the design of the new system in the late 1990's.
  --Adjustment Line Monitoring Initiative.--The requested systems 
        improvements and staff to perform this function are required to 
        ensure company adjustments are made only within allowable time 
        frames.
    3. Address new mission requirements and recommendations.
  --Implement OIG Compliance and Audit Recommendations Initiative.--
        This proposal ensures MRM's ability to address recommendations 
        by the OIG in its December 2006 report regarding MRM's 
        Compliance Review activities. The requested funding will allow 
        MMS to increase the audit staff by 4 FTE, to expand company and 
        property compliance coverage, and to develop and implement a 
        risk-based automated compliance tool for use in targeting audit 
        and compliance resources.
    MMS expects that the funding requested for these improvements will 
be sufficient to ensure full functionality and complete these 
initiatives.

                         ROYALTY POLICY REPORT

    Secretary Kempthorne. Yes. May I add? You mentioned the 
Garn-Kerrey report. They made 110 recommendations to us, and 19 
have been implemented. We are now moving on a large number of 
others. Twenty-two of those 110 mirrored what the Inspector 
General had recommended. I think out of all of that, there will 
be three that we will have to come and ask for legislative 
help, but we are moving because it was a very fine report by 
former members of this institution and other talented people 
who work with them. I think it really has helped us.
    Senator Feinstein. Thank you.

                              POLAR BEARS

    One other quick question. Is the polar bear on its way to a 
finding of endangerment?
    Secretary Kempthorne. I cannot answer that. I will tell you 
that we are proceeding with a decision on the issue of the 
polar bear. I will tell you, Madam Chairman, that January 2007 
the Fish and Wildlife Service issued a proposed listing with 
regard to the polar bear. I asked the U.S. Geological Survey 
then to take a significant portion of that and examine the 
science. They came back with nine different reports, all peer-
reviewed. We knew then, upon receipt of this new science and 
data by USGS, that it was going to cause us to have to take 
additional time. We knew that at that point.
    We also felt it was incumbent upon us, based on this data 
from USGS, to now reopen the public comments and even to extend 
that. We have 670,000 comments that we have received. It is a 
tremendously critical, important issue. I want to ensure that 
we do it properly with the right science and the right legal 
input.
    Senator Feinstein. So what you are saying is the decision 
will likely be made by the next administration.
    Secretary Kempthorne. No.
    Senator Feinstein. No, you are not.
    Secretary Kempthorne. No.
    Senator Feinstein. So the decision will be made this year.
    Secretary Kempthorne. Yes.
    Senator Feinstein. Thank you very much.
    Secretary Kempthorne. Absolutely.
    Senator Feinstein. Thank you.
    Senator Allard.
    Senator Allard. Thank you, Madam Chairman. Just a couple 
things I want to follow up on.

                         CANYON OF THE ANCIENTS

    Also in the Canyon of the Ancients down in southwestern 
Colorado, there is a draft resource management plan that was 
kicked out. It is a national monument. There is a resource 
management plan that has been kicked out. It seemed to 
deemphasize the importance of oil and gas development on the 
management plan. There are a lot of cultural resources down 
there, and I support that. But my impression is with the 
current technology we have and everything, that we can 
accommodate both without injuring the other.
    The question I have is, does the BLM have an obligation to 
ensure that oil and gas exploration can coexist with culturally 
rich areas?
    Secretary Kempthorne. Senator, I do not believe that they 
are by their very nature mutually exclusive. They have to be 
done with all sensitivity. We have to find the balance so that 
we do not overlook our responsibility with regard to the 
cultural and historic values.
    Senator Allard. That is a very sensitive area on the 
cultural.
    Secretary Kempthorne. Yes. It has to be done carefully, but 
our attitude is to find the means that you can do it. That is 
why, as I have said earlier, you have world-class habitat 
sitting right above world-class energy resources. They are not 
mutually exclusive, but you have to do it holistically. You 
have to find the sensitive balance to this.

                              ROAN PLATEAU

    Senator Allard. I would like to go back to the Roan Plateau 
again. These are parochial issues. We have a lot of oil and gas 
development in Colorado, as you are aware, because we have huge 
reserves there.
    There is an estimate of about 8.9 trillion cubic feet of 
natural gas within the area known as the Roan Plateau, and 
obviously, with that much reserve, it would play a vital role 
in our country's energy security and being less dependent on 
foreign oil.
    Now, it is my understanding that the resource management 
plan for this area, which was released by the BLM in 2006, is 
the most restrictive in the agency's history. I appreciate what 
your Department, specifically Steven Allred, has done in 
working with the Governor of Colorado and other existing 
parties on this management plan.
    Now, two of the most unusual parts of the plan is the 
surface occupancy restrictions and the unitized operator 
approach. Now, under the BLM plan, the surface occupancy on top 
of the plateau would be limited to 1 percent at any one time.
    Secretary Kempthorne. Correct.
    Senator Allard. Which means that about 350 acres can be 
disturbed, and before you can disturb any more, you have to 
reclaim all that, which seems reasonable to me.
    Now, it is my understanding the Governor's primary 
outstanding concern is the request for phased leasing rather 
than selling all the leases at once as the Department plans to 
do.
    Can you tell me why the Department decided against the 
approach of phased leasing?
    Secretary Kempthorne. Senator, the thoughts of the BLM are 
that the phased leasing would lead to a greater disturbance on 
the surface. Again, the objective is to keep the disturbance to 
a minimum.
    Senator Allard. Can you tell me whether you feel this would 
have any effect on the length of the process to develop the 
Roan management plateau plan and what kind of time line you 
might have on that in your plans?
    Secretary Kempthorne. On a time line, really, I would 
rather get back to you with a very accurate, detailed response 
on that.
    [The information follows:]
                Bureau of Land Management--Roan Plateau
    The Department does not recommend phased leasing to develop the 
Roan Plateau.
    Under the BLM's plan for phased development all leaseholders 
participate in a single federal unit and there are strong incentives 
for minimizing disturbance and reclaiming lands more quickly and 
efficiently. The sooner one phase is developed and reclaimed, for 
instance, the sooner the next phase can begin. All leaseholders have a 
financial stake in this profit-sharing Federal unit. Under the phased 
leasing approach, the financial incentive to ensure timely 
development--and especially reclamation--is not nearly as strong. 
Because each lease is issued competitively, the lessee may not be a 
part of the profits in the next ``phase.'' The phased leasing approach 
provides no incentive in this instance for minimizing disturbance or 
hastening reclamation efforts. Phased leasing and reclamation standards 
would significantly extend the timeframe for leasing the Roan Plateau.

    Senator Allard. Well, that is fine. You have worked a lot 
with local governments and local governments have been having 
their input in there. The State has had input working with the 
BLM, and we all appreciate the fact that everybody has worked 
together on that.

                       COLORADO OIL AND GAS RULES

    Now, there has been some discussion about the new draft 
rules regulating oil and gas development in Colorado which has 
been proposed by the Oil and Gas Conservation Commission. Have 
you had a chance to review the proposed rules? If you have, can 
you share with the subcommittee some of the rules and how they 
would affect your Federal activities?
    Secretary Kempthorne. What I would ask you is if I could 
have Steve Allred provide an evaluation of that.
    Senator Allard. Okay, very good. We will have some 
questions on that when you get a chance to follow up on it.
    Senator Feinstein. Thank you. Excuse me, Senator.
    Senator Allard. Go ahead. My time is expired.
    Senator Feinstein. If you have another question, go ahead.

                       NATIONAL PARKS CENTENNIAL

    Senator Allard. Just one thing briefly, if I might. We 
provided you with $25 million in the matching grant funds for 
the centennial initiative.
    Secretary Kempthorne. Yes.
    Senator Allard. You will be announcing those awards 
shortly. However, the legislation you sent up last year to the 
authorizing committee, which would set up the annual $100 
million mandatory matching grant fund for the centennial, has 
not been acted upon.
    Can you tell us where this legislation stands?
    Secretary Kempthorne. Yes. We now have legislation that has 
been introduced both in the House and in the Senate. In the 
House, the issue thus far has been the offset. There seems to 
be bipartisan agreement on the concept, but it is what is the 
offset for the $100 million mandatory spending each year 
leading up to 2016. There have been five different proposals 
that have been placed on the table. For a variety of reasons, 
there has not been consensus on any of the five.
    Senator Allard. You are continuing to pursue this 
vigorously with the authorizing committee?
    Secretary Kempthorne. Yes, we are.
    Senator Allard. Because it is important because if we have 
a limited amount of resources here and then they need to pick 
up their burden on this.
    Secretary Kempthorne. I agree. We are very actively working 
with both Members in the Senate and in the House and also 
actively having discussions with OMB.
    Senator Allard. Oh, good.
    Thank you, Madam Chairman.
    Senator Feinstein. Thank you very much.
    Senator Craig, you have another question?

                      SAFE BORDERLANDS INITIATIVE

    Senator Craig. One last question, Madam Chair, because I 
know the Secretary, from his very first days in office, 
expressed frustration. It is a commonality that you and I share 
and have worked very closely on, Madam Chair, as it relates to 
providing a legal foreign national workforce for our country. 
In fact, the chairman and I are now engaged in trying to save 
American agriculture's workforce that is dramatically 
diminishing, in part because of our successes along the border 
and effective enforcement.
    You have added to your budget about $8.2 million for 2009 
as it relates to the DOI's management of the 793 miles of 
southern border. Would you visit us with that issue a little 
bit about the safe borderlands initiative that you are working 
on and where we are with that?
    Secretary Kempthorne. Yes, thank you.
    With regard to the border security, as the country has 
become more successful and effective at closing illegal 
crossings of drugs and individuals at the urban centers, it has 
caused them to go to the remote areas, and that is where our 
properties come into play. We work closely with the Department 
of Homeland Security. There are significant areas along the 
border that are not safe for American families to visit, to 
spend an overnight camping opportunity because of the drug 
smuggling that is taking place by the national drug cartels. So 
as the efforts continue that include personnel, that include 
radio interoperability, and that include the fencing, it will 
help us to then have a safe border that meets the 
responsibility and the goals of this country.
    Senator Craig. Well, I thank you for that.
    Madam Chair, I had the Mexican Government in last week to 
talk about the joint initiative between the United States and 
Mexico in relation to drug apprehension. The Ambassador made 
the most stark statement that sticks in my mind. They 
apprehended a fellow who was a major sourcer of the input of 
meth, the product coming out of China, interestingly enough, 
coming through a major port in California and then moving 
through to Mexico to be processed. They discovered in one room 
in this apprehension $210 million in $100 bills that this one 
man had stacked up in a room. In fact, it was a room, they 
said, about the size of my office at the time and it was 
stacked about 5 feet deep. That was sourced out of China 
through a California port into Mexico to be processed and back 
into the United States. I know our Presidents are working on 
that initiative now.
    Senator Feinstein. If you would excuse me just for a moment 
because I did this precursor chemical bill, and I have got to 
take a look at exactly what that is because those precursors, 
even in transit should not be coming in.
    Senator Craig. You are right. They should not be and there 
is every effort to stop it. But that was a pretty stark reality 
of the phenomenal organizational effort and the money involved 
in this.
    We have got Organ Pipe I think is one of the areas that you 
talked about where it is no longer safe for the citizen to be 
even out on our national lands. So I appreciate the effort 
underway here by BLM and the Park Service as a part of the 
total.
    Senator Feinstein. This was a congressional add that we 
added.
    Senator Craig. Yes, that is right.
    Senator Feinstein. This was an earmark.
    Senator Craig. It is now an initiative. It is a good idea.
    Secretary Kempthorne. I love your initiatives.

                            U.S. PARK POLICE

    Senator Feinstein. In any event, you wanted to speak about 
the Park Police.
    Secretary Kempthorne. I would like to, Madam Chairman, just 
very briefly. This is an organization that goes back to 1791. 
The officers, the men and women, that proudly carry the badge 
of the U.S. Park Police are not properly reflected in some of 
these items that have been brought to our attention, management 
issues. It is management issues. It is not the officers. With 
regard to the issue of qualifications of weapons, the safety 
equipment such as their Kevlar vests, we now are correcting 
that, and we put an urgency on that.
    Senator Feinstein. San Francisco and----
    Secretary Kempthorne. Absolutely.
    Also, though, Madam Chairman, I would just say that when 
you add all of the law enforcement that we have within the 
Department of the Interior, we are the third largest law 
enforcement entity in the Federal Government. I am using the 
information from the Inspector General to go across the entire 
Department with regard to qualifications, safety equipment, 
interoperability of equipment.
    I will have a meeting this month with my assistant 
secretaries, the bureau directors and the chiefs of our 
respective law enforcement entities so that they know this is a 
priority. It is not lip service. These officers deserve our 
full support and backing.
    Senator Feinstein. We certainly will support them any way 
we can.
    Let me make one other point about drug money in your 
budget.
    Secretary Kempthorne. Yes.

                           MARIJUANA IN PARKS

    Senator Feinstein. You know, I met with DEA, FBI, everybody 
that was working on marijuana in the parks. I think we put 
what? $18 million. Oh, we did it in the Forest Service.
    Secretary Kempthorne. Yes.
    Senator Feinstein. But Interior is also part of that.
    It is really very important that these surges continue and 
that you clean out the parks because California parks are 
riddled with marijuana growth, and it is run directly by 
Mexican cartels and foreign nationals. They carry weapons and 
it is very problematic. I will not get into your weapons 
policy, but as you know, I really worry about people walking 
into these parks with weapons and you have got cartels with 
weapons and what might happen. So you need to help clear the 
parks out.
    Secretary Kempthorne. I agree with you, Madam Chairman. As 
you have identified, we have used the surge of BLM, National 
Park Service, BIA, and Fish and Wildlife Service in a concerted 
effort going into these areas. We have been successful. We 
appreciate your help on that.
    You are correct. Those that are tending these gardens have 
been told that they are to defend those gardens with their 
life. It is all being driven by the national drug cartels. Some 
of those individuals, it is our understanding, that are tending 
those gardens are themselves----
    Senator Feinstein. It is more than gardens. Gardens means 
small. These sometimes are huge.
    Secretary Kempthorne. Plats.
    Senator Feinstein. Yes, with millions of plants.
    Secretary Kempthorne. But under threat that if they do not 
defend it with their life, members of their family, their 
children, will be executed back in Mexico. We are dealing with 
ruthless, ruthless thugs that are peddling this poison.
    That is why both in the Indian initiative, Safe Indian 
Communities, the Border Patrol--you mentioned Senator Craig 
Organ Pipe. We estimate that $1 million a day of illegal drugs 
are going through that national park. That is where Chris 
Eggle, one of our law enforcement rangers, was shot down and 
killed in 2005. We cannot send our staff to carry out normal 
functions in these refuges, parks, and Bureau of Land 
Management and reservations without two armed officers with 
them. That is how tough this area is.
    Senator Feinstein. Well, I tell you, we will put in what 
you need.
    Secretary Kempthorne. That is greatly appreciated.
    Senator Feinstein. So, I mean, forget OMB. I mean, we are 
not going to see our parks get loaded with drugs. That is just 
the way it is going to be. If they want to come up and arm 
wrestle us, so be it.

                     ADDITIONAL COMMITTEE QUESTIONS

    We will leave the record open for questions from other 
committee members.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
               Questions Submitted by Senator Ben Nelson
    Question. Last year, unfortunately the Landowner Incentive Program 
was eliminated. As you know the focus of this program was to help 
landowners become involved in species conservation on their lands. 
While eliminated, the committee did direct the Department to work with 
the States to develop a new grant program as part of State and Tribal 
Wildlife Grants that would direct funding to species conservation 
projects on private lands.
    Excerpt from the fiscal year 2008 Interior Appropriations report 
110-91 as adopted by the Senate Appropriations Committee and carried as 
part of the fiscal year 2008 Consolidated Appropriations Act:
    In fiscal year 2008, the Committee accepted the Department's 
decision to discontinue the private stewardship and landowner incentive 
grants programs but recognizes the need for species conservation 
efforts on private lands to continue. The Committee urges the Service 
to work with the States to develop a new subset of funding under the 
State and tribal wildlife grant program that can direct grants toward 
species conservation projects on private lands. The Committee is 
receptive to ideas from the Service and the States on how best to 
accomplish the goal of continued Federal support for conservation on 
private lands within the framework of the State and tribal wildlife 
grant program
    Question. What has the Fish and Wildlife Service thus far 
accomplished with respect to creating this new subset of funding for 
directed grants toward species conservation projects on private lands?
    Answer. The Service is currently working with States to review 
draft criteria for a competitive program developed as a subset of 
funding under the State and Tribal Wildlife Grants program. The grants 
will be awarded to the highest ranking cooperative conservation 
projects that are in State Wildlife Conservation Plans. Priority will 
be given to cooperative conservation projects with an emphasis on 
performance and outcomes. At this time, one of several proposed ranking 
criteria is directed at species conservation projects on private lands.
    Question. The Fish and Wildlife Service requested $74 million in 
their fiscal year 2009 budget request for State and Tribal Wildlife 
Grants. Of that amount, how much is going to be used for this new 
subset of grant funding for species conservation projects on private 
lands?
    Answer. Presently, there is no subset of State and Tribal Wildlife 
Grant funding being directed exclusively towards species conservation 
projects on private lands. However, such projects could be eligible for 
the State apportioned funding and possibly some of the competitive 
funding if identified as a strategy in the State's Wildlife Action 
Plan.
    Question. When do you anticipate this new grant program being 
implemented?
    Answer. The Service anticipates that the competitive program of the 
State and Tribal Wildlife Grant program, authorized in fiscal year 
2008, will be implemented by no later than September 30, 2008.
                                 ______
                                 
               Questions Submited by Senator Wayne Allard
                   national park service/park police
    Question. Recently, the Department's Inspector General (IG) did a 
report on the U.S. Park Police and found many disturbing problems. He 
found low morale, many key positions at headquarters are vacant, and 
the number of officers is at a 20 year low when the force is charged 
with many additional anti-terrorism responsibilities in the aftermath 
of September 11th.
    Can you update us on what you are doing in response to the IG's 
report?
    Answer. The Secretary of the Interior established a Management 
Oversight Team (MOT) to address the recommendations contained in the 
IG's report. The members of the MOT include Associate Deputy Secretary 
James Cason; Assistant Secretary for Fish, Wildlife and Parks, Lyle 
Laverty; and National Park Service Director Mary Bomar. These 
individuals are being assisted by Deputy Assistant Secretary for Law 
Enforcement, Security and Emergency Management, Larry Parkinson; 
Principal Deputy Assistant Secretary for Fish, Wildlife and Parks, 
David Verhey; and National Park Service Deputy Director, Dan Wenk. The 
MOT established a Command Management Team (CMT) to take responsibility 
for the daily operations of the United States Park Police and to 
finalize and implement an Action Plan to address 19 of the 20 
recommendations contained in the report. The MOT is responsible for 
addressing the 20th recommendation.
    Question. The CMT, led by Salvatore R. Lauro in the position of 
Acting Assistant Chief of Police, has been in place since March 3, 
2008. The CMT has been aggressively addressing the OIG recommendations, 
with priority being given to matters affecting officer safety, icon 
protection and staffing. The MOT meets weekly with the CMT to review 
progress and provide guidance. The MOT also provides the Secretary of 
the Interior with regular project updates.
    Can you assure the public that the many icons the Department is 
responsible for like the Statue of Liberty, Ellis Island, and the 
Washington Monument are adequately protected?
    Answer. In the aftermath of 9/11, as a result of increased emphasis 
on homeland security and icon protection, the U.S. Park Police (USPP) 
has reallocated its resources from some of its more routine and patrol 
enforcement activities to icon protection. The USPP have also employed 
a number of efforts to protect the icons while ensuring these national 
treasures remain open and accessible to the public, including utilizing 
USPP officers and security personnel to provide 360 degree coverage on 
a 24-hour basis at the Statue of Liberty and the three National Mall 
icons; constructed physical security barriers to prevent vehicle-borne 
threats; using Closed Circuit Television cameras to monitor activities 
within and around the Statue of Liberty and the three National Mall 
icons on a 24-hour basis; employing magnetometer and x-ray machines to 
screen visitors entering the Washington Monument; partnering with 
public and private research entities to test and evaluate emerging 
security technologies at the Statue of Liberty, where three screening 
facilities are utilized to screen all persons and packages traveling to 
Liberty Island and/or entering the Statue; employing USPP explosives 
detection canines to screen ferry boats transporting visitors, staff, 
and supplies to the Statue; maintaining a 150-yard maritime restricted 
security zone around the Statue (efforts are currently underway with 
the U.S. Coast Guard to expand this security zone in the waters between 
Liberty and Ellis Islands to further divert vessel traffic away from 
the Statue); and, assigning USPP officers or commissioned NPS rangers 
to the Washington Field Office FBI--Joint Terrorism Task Force (JTTF), 
the Washington Field Office FBI--Fairfax County Regional Intelligence 
Center, the Department of Homeland Security Operations Center, the New 
York Office FBI--JTTF, and the NYPD Counterterrorism Unit.
    Question. I see that your budget proposes a $7.6 million increase 
for the Park Police, will part of this be used to recruit new officers?
    Answer. In addition to the fixed costs request of $1,909,000 and 
$1,000,000 for Inaugural related activities the budget proposal for the 
USPP includes funding of $4.8 million to increase the number of sworn 
officers. Anticipating average attrition, this reoccurring funding will 
allow us to recruit, hire, train and equip a total of 630 officers by 
the end of 2009.
    Question. What do you believe is the necessary number of officers? 
When will you reach that level, and what will it cost?
    Answer. In December 2004, the Department completed a comprehensive 
review of the mission, priorities, and responsibilities of the Park 
Police. This effort was coordinated with the National Academy of Public 
Administration (NAPA), which undertook two major reviews of the Park 
Police. Using a methodology developed by NAPA, the Department assessed 
and prioritized each function performed by the Park Police--including 
monument security and all local law enforcement responsibilities--and 
concluded that a targeted staff of 639 sworn law enforcement officers 
was appropriate.
    If the $4.8 million increase requested in the 2009 President's 
Budget is appropriated, we anticipate approaching the 639 officers 
during fiscal year 2010.
               kerr mc gee case/deepwater offshore leases
    Question. We held a hearing earlier this year with the Assistant 
Secretary for Lands and Minerals, Steve Allred, about several issues 
relating to the Outer Continental Shelf (OCS) leasing program. I wonder 
if you might update us on a few things we discussed then. For example, 
last October, in the Kerr-McGee litigation, the district court held 
that price thresholds are not permitted in any leases under the 
Deepwater Royalty Relief Act.
    Can you tell us the status of this litigation?
    Answer. On December 21, 2007, the Department of Justice filed a 
timely notice of appeal with the Federal District Court to protect the 
interests of the United States in the Kerr-McGee litigation.
    Question. Given the Kerr McGee case, is there anything that the 
Department is doing or that it can do to encourage more companies to 
come to the table and pay royalties on the 1998-1999 leases that were 
issued by the Minerals Management Service without price thresholds?
    Answer. We remain open to discussing resolution of this issue with 
the companies that hold Deep Water Royalty Relief Act leases from sales 
held in 1998 and 1999. We do not believe that any additional lessees 
will agree to price thresholds until they see the outcome of the Kerr-
McGee case.
    Question. What is happening with respect to royalty collection from 
companies holding leases from 1996, 1997, and 2000? Have any of them 
indicated that they will not continue to pay?
    Answer. In a March 10, 2008 ``Dear Reporter'' letter to industry, 
MMS issued guidance regarding companies royalty payments in light of 
the October 30, 2007, decision of the United States District Court for 
the Western District of Louisiana in Kerr-McGee Oil & Gas Corp. v. 
Allred. Because the Kerr-McGee decision may be the subject of 
additional litigation, we advised all affected payors and lessees to 
make no adjustments regarding their prior or ongoing royalty payments 
until there is a final, non-appealable judgment entered in the case.
    Question. As you know, there have been legislative efforts to force 
the oil companies with these leases to renegotiate their contracts. You 
have had several recent sales in the Gulf of Mexico and in Alaska that 
have generated close to $3 billion each in bonus bids--would forcing 
companies to renegotiate jeopardize these revenues because the leasing 
program might be enjoined altogether?
    Answer. The most prominent effort to force companies to negotiate 
royalty payments involves barring companies that refuse to come to 
terms from participating in future lease sales. It certainly seems 
likely that these companies would sue the government to determine if 
this is a legal remedy or not. It is not unreasonable to expect that it 
could take several years to resolve this issue. If such a suit were to 
delay leasing for 3 years we estimate that the government would lose 
approximately $13 billion over a 10-year time period.
    Question. If the Kerr-McGee case is upheld on appeal, what is the 
potential loss to the Treasury?
    Answer. If Kerr-McGee is successful in their lawsuit, we estimate 
that the total royalties at stake could range from about $23 billion to 
$32 billion. Our original estimate, reported by GAO, was $60 billion. 
Since that time we have updated that work and have reported the updated 
estimates to Congress in 2007 in two installments.
    The first installment applied only to those DWRRA leases sold in 
1998 and 1999, and was reported in June 2007. This work indicates that 
the future royalty potential, as of January 1, 2007, from the 1998-1999 
DWRRA leases ranges from $5.3 billion to $7.8 billion.
    The second installment, reported in February 2008, applied only to 
those DWRRA leases sold in 1996, 1997, and 2000. This work indicates 
that the future royalty potential, as of October 1, 2007, from the 
1996, 1997, and 2000 DWRRA leases ranges from $15.7 billion to $21.2 
billion.
    Looking backward, as of the end of fiscal year 2007, we estimate 
that $1.37 billion would have been paid on DWRRA leases issued in 1998 
and 1999 had price thresholds been in place. In addition, over $1.1 
billion in royalties have already been paid on DWRRA leases issued in 
1996, 1997, and 2000.
    Question. Do you have any recommendations for what Congress should 
do if the government loses the case on appeal?
    Answer. The legislation to address this situation that was passed 
by the House had a high potential for causing litigation by modifying 
existing contracts. We believe that efforts to recoup these moneys 
should not jeopardize our nation's energy security or the future 
revenues from upcoming OCS sales.
    Applying fixes that could result in litigation could easily cost 
the United States billions over the next decade and result in reduced 
annual production levels. We still remain committed to the sanctity of 
our contracts; companies need to know that the United States negotiates 
in good faith. We are also still committed to working with Congress to 
try to resolve this issue as long as any effort to recoup royalties is 
fully thought through and protects the integrity of the government and 
energy security for the American people.
                 administrative fees on onshore leases
    Question. The fiscal year 2008 Interior bill authorized the Bureau 
of Land Management to charge a fee this year of $4,000 on Applications 
for Permits to Drill. It is my understanding that the Administration is 
proposing an amendment to the Energy Policy Act of 2005 that would 
authorize the Department to issue a rule making these fees permanent 
and also to raise them. This concerns me if it creates a disincentive 
for increased domestic production and does not take into account 
differences in the costs of production in different States.
    In Colorado, the costs of production are very high. Will this rule 
take into account the differences among the States in terms of the cost 
of production when setting fees?
    Answer. At this time, we do not anticipate the rule taking into 
account the differences among the States in terms of the cost of 
production when setting the fee. The proposal is for a cost recovery 
fee that takes into account the BLM's cost to process an application 
for permit to drill (APD). If it is determined that the costs for 
processing an APD vary from State to State, then the final cost 
recovery fee may, likewise, vary from State to State. The proposed 
interim fee represents a very small fraction of the development and 
production costs for any new well.
    Question. Won't charging higher fees upfront to process these 
applications hurt smaller producers?
    Answer. No. The proposed fee represents a very small fraction of 
the development and production costs for any new well, so the effect of 
the fee on small producers should be negligible. The fee may cause all 
operators to be more prudent when applying for drilling permits, so 
that they only apply for permits for those wells that they actually 
intend to drill.
    Question. How long will it take the BLM to issue this rulemaking?
    Answer. At the latest, we expect to release the final rulemaking by 
the end of calendar year 2009. To avert any shortfall in funding for 
APD processing, in the event that the cost recovery rulemaking has not 
been implemented for all of fiscal year 2009, the legislation submitted 
by the Administration will impose, by statute, an interim fee of 
$4,150, to ensure the estimated $34.0 million in fees are collected.
    Question. How much in fees does the agency plan to collect if it is 
implemented?
    Answer. As noted in the preceding response, we estimate that we 
will collect $34 million in fiscal year 2009, either solely through 
cost recoveries, or through some combination of cost recoveries and a 
statutory interim processing fee.
               blm/national landscape conservation system
    Question. One of your predecessors, Secretary Babbitt, created the 
so called National Landscape Conservation System (NLCS) out of many of 
the most significant BLM lands, including the Grand Staircase-Escalante 
National Monument and the Headwaters Preserve. There are currently 
legislative efforts in the house to codify this NLCS system.
    Can you tell me what your position is on these legislative efforts?
    Answer. The administration supports the House and Senate bills that 
codify the NLCS.
    Question. Could activities that are currently allowed on these 
lands like grazing be curtailed if this system is codified into law?
    Answer. No. Both the House and Senate bills propose to establish in 
statute the current administrative structure of the NLCS--the bill 
would not alter the management of individual units. There is a 
multiple-use component to the NLCS, and the proposed codification will 
not change this. Existing management policies and restrictions would 
remain in effect.
                  wildland fire outlook for this year
    Question. We recently had the Chief of the Forest Service here and 
I asked this question and I think it's relevant for you as well. I know 
that trying to predict the severity of the upcoming fire season at this 
point in the year is difficult at best. However, we are marking up a 
supplemental appropriations bill later this month.
    With that in mind, can you give us some sense of how severe you 
expect this fire season to be based on what you know now?
    Answer. The Wildland Fire Outlook for the period June 2008 through 
September 2008 reveals that significant fire potential is forecast to 
persist or increase in portions of California, the Southwest, Western 
Great Basin, Rocky Mountain and Northern Rockies. Significant fire 
potential will decrease across Florida, eastern New Mexico, western 
Texas, Alaska, and southeastern portions of the Rocky Mountain Area. 
The primary factors influencing this outlook are:
  --Even with a rather wet period during the latter half of May, most 
        of the West has been drier than normal this spring.
  --Drought conditions continue over portions of the West and 
        Southeast. However, improvement is expected in the Southeast 
        and to a lesser degree over Texas and New Mexico.
  --Abundant fine fuels across portions of the Southwest, southern 
        California deserts and Front Range of the Rockies may lead to 
        an above normal fire season in these areas.
  --Fire potential should begin to wane over the Southwest and Florida 
        in July due to the onset of the Southwest monsoon and 
        increasing humidity and showers in the Southeast.
    Would additional funds on the supplemental be helpful to the 
Department?
    Answer. It is still too early in the fire season to tell whether or 
not additional suppression funds will be needed. In addition, DOI and 
FS are actively implementing cost containment measures to help 
constrain suppression spending. Even if fire conditions are extreme, 
funds will be available for ongoing suppression operations, as DOI has 
unobligated funds in its non-fire accounts that are available under 
current law if wildfire activity is unexpectedly high and suppression 
funds become exhausted.
                fish and wildlife/esa polar bear listing
    Question. The current focal point of the global warming debate is 
the polar bear. The environmental community is using the Endangered 
Species Act to make the bear the face of global warming. I understand 
that the January 9th deadline came and went without any decision on the 
listing of the Polar Bear, and that subsequently a law suit was filed 
in Federal court to force a decision.
    Would you please explain where the Department is in this process of 
listing the polar bear and why this particular listing decision may 
require more time than others that you deal with?
    Answer. On January 9, 2007, (72 FR 1064) the Fish and Wildlife 
Service proposed to list the polar bear as threatened, citing loss of 
habitat resulting from receding sea ice. In September 2007, USGS 
scientists supplied new research to the Service, updating population 
information on the Southern Bering Sea polar bear population. USGS also 
provided additional data on arctic climate, sea ice trends and effects 
to polar bear populations throughout the species' range.
    As a result of the new USGS research findings, the Service reopened 
and later extended a second comment period to allow the public time to 
review and respond to the USGS findings. The Department asked for 
additional time to complete its listing decision on the polar bear in 
order to examine the thousands of comments on the new research findings 
submitted in September 2007 by USGS. As a result of this review, the 
decision to list the bear as threatened was made on May 14, 2008.
    Question. I know you may not be able to comment on this, but it 
seems to me that the Endangered Species Act (ESA) is not designed to 
handle situations like we have with the polar bear. From what I 
understand, any decline in the bear's population is because of the loss 
of ocean ice pack. There is nothing that the ESA can provide in the 
form of a remedy to resolve that, unless we are going to expand ESA to 
be used for regulating all carbon emissions in the economy. This is 
not, in my view, what the law was intended for, nor is it a sound basis 
for doing so. All the factors that would go into such a far reaching 
regulatory scheme have simply not been debated by the Congress.
    Answer. On May 14, 2008 Secretary of the Interior Dirk Kempthorne 
made the decision to list the polar bear as a threatened species under 
the Endangered Species Act (ESA). The listing is based on the best 
available science, which shows that loss of sea ice threatens and will 
likely continue to threaten polar bear habitat. This loss of habitat 
puts polar bears at risk of becoming endangered in the foreseeable 
future, the standard established by the ESA for designating a 
threatened species.
    The listing will be accompanied by administrative guidance and a 
rule that defines the scope of impact the decision will have. While the 
legal standards under the ESA do not provide discretion not to list for 
economic or other social considerations, the listing will not stop 
global climate change or prevent sea ice from melting. A real solution 
to climate change requires action by all the world's major economies. 
The ESA was never intended to regulate global climate change. The ESA 
is not the right tool to set U.S. climate policy.
      national wildlife refuge system/impacts on colorado refuges
    Question. The total fiscal year 2009 budget request for the 
National Wildlife Refuge System is $434.1 million, a $5.3 million 
decrease from the fiscal year 2008 enacted level. The budget request 
proposes significant program decreases from the fiscal year 2008 
enacted level in Wildlife and Habitat Management (-$930,000), Visitor 
Services (-$1.7 million), and Refuge Maintenance (-$2.4 million).
    With such a large cut to maintenance, will the agency be able to 
keep up with regular cyclical maintenance on schedule? Will we see an 
increased backlog of deferred maintenance projects?
    Answer. The President's budget request for the National Wildlife 
Refuge System is essentially level funded with the 2008 appropriated 
level when 1.56 percent across-the-board reduction in section 437 of 
the Consolidated Appropriations Act is included. The President's 
request of $136.2 million for refuge maintenance prioritizes funding 
for the most critical health and safety maintenance needs. This 
represents the highest budget request in the history of the Refuge 
System and the Service believes that the request supports its priority 
maintenance needs. The request provides funding for 280 deferred 
maintenance projects identified in the Service Asset Maintenance 
Management System (SAMMS).
    The Refuge System maintains an inventory of deferred maintenance 
and capital improvement projects and maintains a deferred maintenance 
five year plan to guide the allocation of funding. New projects are 
added to the SAMMS each year and others are removed as they are 
addressed. The Service uses the Facility Condition Index (FCI), a 
measure of the ratio of the repair costs to the replacement costs for 
each asset, as one factor in the prioritization of the use of 
maintenance funding. In addition, an Asset Priority Index (API) is 
utilized to indicate the relative importance of an asset to 
accomplishment of the Refuge System's mission. The Refuge System 
continues to prioritize these maintenance needs through improved data 
that underlies development of five-year budget plans. The Service's 
five-year deferred maintenance plan for the National Wildlife Refuge 
System for fiscal years 2009-2013 contains 1,882 projects for an 
estimated total of $211.2 million.
    Question. I am specifically concerned that this proposed funding 
decrease for the National Wildlife Refuge System will not provide 
sufficient funding for the Rocky Flats, Rocky Mountain Arsenal, and 
Baca wildlife refuges in my home State of Colorado to remain fully 
staffed and operational in fiscal year 2009. Would you please provide 
me the specific funding breakdown for these three refuges in the fiscal 
year 2009 request compared to the fiscal year 2008 enacted level?
    Answer. These three refuges are funded as complexes, funding for 
the two complexes is:

                        [In thousands of dollars]
------------------------------------------------------------------------
                                                 Fiscal year
                                   -------------------------------------
                                           2008               2009
------------------------------------------------------------------------
Rocky Mt. Arsenal NWR, Rocky Flats              1,657              1,657
 NWR, Two Ponds NWR...............
Alamosa NWR, Monte Vista NWR, Baca              1,265              1,265
 NWR..............................
------------------------------------------------------------------------

    Question. I understand that the Rocky Mountain Arsenal National 
Wildlife Refuge clean-up and remediation is on target for completion by 
2011. As the remediation process comes to an end, the Fish and Wildlife 
Service must begin the process of standing-up the refuge. Is the 
necessary funding in place for this transition and for the Refuge 
Visitor Center that the regional office is in the process of designing?
    Answer. An initial 4,930 acres of lands of the Rocky Mountain 
Arsenal were officially transferred to the FWS in 2004; in 2006 an 
additional 7,266 acres were transferred to the FWS. Upon completion of 
cleanup in 2011, roughly 3,000 additional acres will be transferred to 
the refuge.
    The Refuge Visitor Center is in the planning and design phase. The 
Service has $4,690,100 from the proceeds of the sale of some of the 
Arsenal land, pursuant to the Rocky Mountain Arsenal National Wildlife 
Refuge Act of 1992. These funds are set aside for the visitor center. 
The Service will use $150,000 of these funds this year for a conceptual 
plan for the center. Currently, the majority of refuge operations 
funding is provided through reimbursable agreements with the U.S. Army, 
Shell Oil Company, and Environmental Protection Agency. These 
agreements will expire when cleanup is complete in 2011. The fiscal 
year 2009 President's budget provides sufficient funds for operation.
    Question. The Department of Interior directed that bison be 
reintroduced to the Rocky Mountain Arsenal National Wildlife Refuge in 
March 2007; however, no additional funding or facilities were provided 
to the refuge for the herd (21 to date) at that time. Does the fiscal 
year 2009 budget request include the resources necessary to properly 
maintain the bison on this refuge?
    Answer. Yes, the 2009 budget provides sufficient funding, $56,000, 
for managing the bison herd.
                            safe borderlands
    Question. The Refuge Law Enforcement budget request includes a $1 
million increase to provide six Refuge Law Enforcement Officers along 
the southwest border for increased security in relation to illegal 
border crossings and other illegal activities on refuges. Recently, 
Department of Homeland Security (DHS) Secretary Chertoff invoked his 
authority under the REAL ID Act of 2005 to waive Federal law in order 
to build the southwest border fence through the Lower Rio Grand 
National Wildlife Refuge in Texas.
    I know you have visited the southern border many times; how does 
the Department of Interior address border enforcement, illegal 
immigration and wildlife issues on the public lands it manages along 
the southwest border?
    Answer. The Department's land management bureaus manage 793 miles, 
or 41 percent of the Southwest border. These lands include seven 
national wildlife refuges, six national parks, 12 miles managed by the 
Bureau of Reclamation, and 191 miles of public lands managed by the 
Bureau of Land Management. In addition, five Indian Reservations span 
the international boundary with Mexico.
    The impacts of illegal border crossings on Interior and tribal 
lands are startling. As an Administration, we have taken aggressive 
steps to add resources to reduce the flow of illegal drugs and aliens 
across the border into the United States. Our initial focus to control 
traffic through urban ports of entry has resulted in substantially 
improved control in those areas. However, it has also resulted in a 
migration of illegal traffic to more rural, less populated areas along 
the border. As a result, Interior's 793 miles of border are being 
impacted to a greater degree.
    The Safe Borderlands Initiative provides a holistic approach to the 
growing problems caused by the increasing illegal border crossings, 
with resources targeted to multiple bureaus and high-priority areas. We 
propose to coordinate border efforts among the Department's land 
management bureaus, the Bureau of Indian Affairs, and the Office of Law 
Enforcement, Security, and Emergency Management. The initiative was 
developed through a collaborative process that involved representatives 
from each of the bureaus. The additional law enforcement officers will 
protect employee housing areas, recreational areas, and other high-use 
sites in an integrated fashion. The initiative includes $5.2 million 
for the National Park Service; $1.0 million for the Bureau of Land 
Management; $1.0 million for the Fish and Wildlife Service; and $1.0 
million for the Bureau of Indian Affairs.
    A significant component of the initiative is a $2.0 million 
increase allocated between the Bureau of Land Management and the 
National Park Service to mitigate environmental damage on lands near 
the southwest border. Trails and illegal roads made by smugglers are 
destroying cactus and other sensitive vegetation, impacting the 
ecologic health of many of the national parks, wildlife refuges, 
national monuments and conservation areas Interior manages. This causes 
a disruption of wildlife and their habitats and the destruction of 
cultural and historic resources. Projects will protect and restore 
habitat for species, as well as improve safety by closing some 
abandoned mines on BLM lands.
    Question. Does the Department of Interior (DOI) have sufficient law 
enforcement presence for adequate coordination with the Department of 
Homeland Security (DHS)?
    Answer. The Safe Borderlands Initiative includes an additional $5.8 
million to improve safety, which includes providing 52 additional law 
enforcement personnel on public lands along the border. These officers, 
in addition to 11 new officers funded with a $3.2 million investment in 
2008, will patrol campgrounds, recreational areas, and other lands 
where smuggling activities threaten visitors. They will also deter 
illegal activity in employee housing areas and provide security for 
employees conducting field work, such as biologists conducting wildlife 
surveys and monitoring activities. Additionally, they will educate 
visitors and employees on border security risks and safety measures and 
coordinate with partner agencies to enhance Interior's efforts. The 
funding for the Bureau of Indian Affairs will support additional law 
enforcement officers to address illegal smuggling of drugs and 
immigrants on reservations on or near the Mexican border. These efforts 
will assist law enforcement agencies who have jurisdiction at the 
international borders.
    Question. What type of working relationship does DOI have with DHS?
    Answer. Through the Safe Borderlands Initiative, Interior proposes 
to enhance coordination with DHS by placing an Interior employee in DHS 
offices funded by DHS to represent Interior issues as DHS implements 
its Secure Borders initiative. Already, the Interior Department has 
signed an agreement with DHS to secure cooperating agency status in 
environmental reviews. Additionally, the Department will enhance 
coordination with the Department of Justice on drug smuggling and 
cross-border interdiction efforts through a Memorandum of Understanding 
with the Drug Enforcement Agency.
      fws law enforcement/import and export of threatened species
    Question. The total fiscal year 2009 budget request for Law 
Enforcement is $57.4 million, a $3.3 million decrease from the fiscal 
year 2008 enacted level. This request eliminates $3 million in 
unrequested funding, better known as Congressionally directed funding.
    The Fish and Wildlife Service's Law Enforcement office is charged 
with protecting plants and animals native to the United States that 
have been listed as endangered or threatened from illegal trade or any 
harmful activity that threatens the species or its habitat; enforcing 
wildlife trade laws on companies that import and/or export wildlife to 
ensure safety, fairness and efficiency in the legal wildlife trade; and 
to combat illegal trafficking in wildlife that is not only a threat to 
the survival of numerous species, but may also be a catalyst for other 
illegal smuggling activities.
    Question. Can law enforcement officials maintain a level of 
inspections and investigations necessary to accomplish these numerous 
and varied tasks with the limited resources provided in the budget?
    Answer. The President's budget provides sufficient funding for 
Service Law Enforcement investigations and inspections focused, among 
the numerous and varied tasks, on activities to address issues of the 
greatest conservation concern, including protecting Federal trust 
species.
    Question. What percentage of inspections of imports and exports 
does this budget request support on an annual basis?
    Answer. The Service's target physical inspection rate for shipments 
is 25 percent; document inspections (examining declarations, shipping 
invoices, airway bills, bills of lading, permits, licenses, etc) are 
conducted for shipments not subject to physical inspection.
    Our target physical inspection rate reflects both workload 
realities (i.e., the size of our wildlife inspector workforce; our 
shipment-to-inspector ratio, which stood at approximately 1,615 
shipments per inspector in fiscal year 2007; and the time required to 
conduct physical inspections) and the need to balance inspector effort 
between compliance inspections of declared shipments (which help 
facilitate legal wildlife trade) and proactive efforts to intercept 
smuggled wildlife (which target global wildlife trafficking). Higher 
physical inspection rates would not necessarily translate into larger 
numbers of seizures since the majority of declared imports/exports are 
in compliance with Federal wildlife laws and violations can often be 
detected based on document inspections.
    Declared shipments are selected for physical inspection based on 
Service enforcement priorities (which are designed to ensure that we 
make the most effective use possible of our staff resources) and the 
assessment of such risk factors as violation history of the importer or 
exporter; known or suspected trafficking in the past involving the 
particular species or commodity; and past problems with shipments from 
the same country of origin or re-export.
    Question. How many investigations lead to criminal convictions each 
year? Would increased funding lead to additional convictions?
    Answer. Service special agents and wildlife inspectors worked on 
12,755 cases in fiscal year 2007; most investigations undertaken by the 
Service eventually result in some type of legal action, including 
civil, or administrative penalties, or criminal convictions. We believe 
this has a deterrent effect on illegal conduct. Increased funding would 
not necessarily lead to additional convictions as there are many 
factors outside of the Service's control that contribute to 
convictions.
    Question. What initiatives has law enforcement undertaken to 
dissuade people from engaging in illegal activities pertaining to 
wildlife trafficking or other activities harmful to species and 
habitats?
    Do you have the resources necessary to be proactive in preventing 
illegal activities?
    Answer. In addition to investigative and enforcement activity, 
Service Law Enforcement continues to support ``Suitcase for 
Survival''--a recently revamped public education initiative to teach 
the public about the threat of illegal wildlife trade. Service officers 
conduct training programs for importers/exporters, brokers and other 
groups and staff public outreach displays at events across the country 
(including Earth Day celebrations and sportsmen's shows) to promote 
compliance with wildlife laws. Service brochures such as ``Buyer 
Beware'' target international travelers. Current and requested budgets 
provide adequate funding to support such initiatives.
fws/upper colorado river endangered fish recovery program and san juan 
              river basin recovery implementation program
    Question. Partners of the Upper Colorado River Endangered Fish 
Recovery Program and the San Juan River Basin Recovery Implementation 
Program, including the States of Colorado, Wyoming, Utah, Arizona, and 
New Mexico, have been working cooperatively to recover endangered 
Colorado River fish species and improve water quality, while striving 
to meet the growing energy and water needs of the Intermountain West. 
The fiscal year 2009 budget request includes $697,000 for the Upper 
Colorado and $200,000 for the San Juan recovery programs, which is 
greatly appreciated.
    Public Law 106-392 requires the Secretary to submit recommendations 
to Congress regarding the continued use of power revenues to support 
the Upper Colorado River Endangered Fish Recovery and San Juan River 
Basin Recovery Implementation programs. It is my understanding that 
continued use of power revenues is supported by the programs' 
participants, including the power customers.
    What is your position regarding use of power revenues?
    Answer. The Upper Colorado River Endangered Fish Recovery Program 
and the San Juan River Basin Recovery Implementation Program have made 
progress toward achievement of their objectives since 2000 , in part 
through the use of power revenues pursuant to Public Law 106-392. The 
Department will be able to determine its position on the use of power 
revenues after the completion and release of the report required under 
Public Law 106-392.
    Question. When may we expect to see your recommendations and 
report?
    Answer. The report is currently being reviewed and should be 
available for release in the near future.
    These programs have greatly streamlined and reduced the cost of the 
administration of the Endangered Species Act for the government and the 
regulated community, while full compliance is achieved. Small water 
users achieve compliance without having to hire lawyers, biologists and 
engineers.
    Question. How is the Department using this experience to improve 
administration of the Endangered Species Act nationwide?
    Answer. The Department believes that cooperative solutions are the 
best way to implement the Endangered Species Act. We are continuing to 
foster partnerships between Federal and non-Federal entities to help 
protect endangered species.
          u.s. geological survey/water for america initiative
    The USGS budget request includes an increase of $9.5 million for 
the Water for America Initiative, for a total of $29.8 million in 
fiscal year 2009. This is in addition to the $31.4 million provided 
within the Bureau of Reclamation's budget request. For the first time 
in over 30 years, the Department proposes to initiate a Water Census in 
order to collect information about our Nation's water resources and 
track changes in our water availability, water quality, and water use 
by 2019.
    The budget request indicates that you intend to track changes 
through 2019. Will the requested funding in fiscal year 2009 support 
these activities over the next 10 years, or will there be annual 
funding requests for each of the subsequent fiscal years through 2019? 
If so, what level of funding is anticipated for each fiscal year?
    Answer. The estimate for completion of the Water Census in 2019 
assumes that base funding will remain constant over the next 10 years. 
This projected timeframe is a preliminary estimate, and will depend on 
funding priorities within the Department.
    Question. In most of the West water is considered property, the 
ownership of which is passionately guarded. In fact, there is an old 
saying that ``whiskey is for drinking and water is for fighting!'' Do 
you anticipate that this Census could have any effect on water rights 
in States where such rights exist? Will the Department work with States 
to ensure that all parties are comfortable with what the Federal 
Government is doing?
    Answer. Authority to manage water resources is largely delegated to 
States, Tribes, and municipalities. The water census will not change 
this. To effectively address water-supply challenges, Federal, State, 
local, and Tribal governments must collaborate to find out how much 
water we have, expand, conserve, and protect supplies to meet 
increasing demands, and plan for the Nation's water future. The 
Department will continue to work through existing partnerships that 
include 1,400 State and local water agencies, State geological surveys, 
State Water Resources Research Institutes, the U.S. Army Corps of 
Engineers, the National Oceanic and Atmospheric Administration, and the 
National Science Foundation.
    Question. Do you see the Water Census becoming a cyclical event 
like that conducted by the Bureau of the Census at the Department of 
Commerce every 10 years? Would a 10 year cycle be often enough in order 
to maintain an accurate analysis of our Nation's water resources, or 
would it need to occur more frequently?
    Answer. A cyclical water census is a promising idea, but to date 
there has not been a detailed analysis on the appropriate timing for 
such an approach. The Department's current priority is to conduct a 
Census over the next 10 years that will provide crucial baseline 
information on the nation's water resources.
    Question. Who are the intended end-users of the information 
collected? How will the information be used? How will it be useful to 
the average citizen in his or her daily life?
    Answer. The intended users include water managers at the local 
level, water districts and utilities, State and local governments, 
Tribes and water users such as fishers and farmers and other 
irrigators. A census will provide information on the current status of 
water in aquifers and reservoirs, rivers, lakes, groundwater and 
surface water, water quality and water use. The information will be 
used to provide objective methods to quantify environmental flows 
needed for aquatic life; improve the ability to predict the impact of 
regional water development on the flow, temperature, and chemical 
quality of rivers; and improve our understanding of the effects of 
climate variability and potential changes on water resources.
                        birds forever initiative
    Question. The USGS budget request includes an increase of $1 
million for the Birds Forever Initiative, for a total of $1.25 million 
in fiscal year 2009. This is in addition to the $8.1 million increase 
included in the U.S. Fish and Wildlife Service's budget request. The 
USGS will use this increased funding to expand its monitoring and 
surveillance of migratory birds through the Breeding Bird Survey. Given 
that some of our most common bird species have declined by as much as 
70 percent in the last 40 years, this seems like a critical activity.
    Is the Birds Forever Initiative a one-time increase, a permanent 
increase to the program base, or an ongoing, multi-year program that 
will require continued funding for a number of years until reaching the 
``end'' of the initiative?
    Answer. The Birds Forever Initiative in the USGS and Fish and 
Wildlife Service will improve understanding of 36 focal species, 
restore habitat, and monitor species status and trends. Many factors 
will influence funding decisions in the future for this initiative such 
as accomplishment of the initiative goals and future National, 
Department, Service, and program goals and priorities.
    Question. One of the proposed objectives of the initiative is to 
expand the geographic scope of the Breeding Bird Survey into Mexico, 
since birds don't recognize borders and can't be stopped by the wall we 
are building along the Southwest Border. What is required in terms of 
an agreement with Mexico to conduct this work south of the border?
    Answer. The Migratory Bird Treaty Act provides the authority for 
the U.S. Geological Survey and U.S. Fish and Wildlife Service to work 
cooperatively with the Mexican government on migratory bird surveys. 
Existing agreements are sufficient to allow this work.
    Question. Since funding for the Birds Forever Initiative is 
included in the Fish and Wildlife Service's budget request as well, are 
the activities within each agency so linked that one increase is 
dependent upon the other?
    Answer. The Birds Forever Initiative was developed as cross bureau, 
cross program initiative involving the U.S. Geological Survey and the 
Fish and Wildlife Service. The most effective and efficient means of 
accomplishing the initiatives goal is through linked efforts and is how 
we have designed the initiative.
                        healthy lands initiative
    Question. The USGS budget request includes an increase of $3.5 
million for the Healthy Lands Initiative, for a total of $5 million in 
fiscal year 2009. This is in addition to the $2 million requested 
through the U.S. Fish and Wildlife Service and the $14.9 million 
requested through the Bureau of Land Management, for a total 
Department-wide program funding level of $21.9 million. This is a $14 
million increase over the fiscal year 2008 enacted level.
    The budget request defines the Healthy Lands Initiative as a 
``long-term science-based effort''. For the purposes of this 
initiative, how have you defined ``long-term''? Is there a projected 
end to this program?
    Answer. There is no projected end to this program, as the 
challenges to maintain and enhance land health will continue into the 
future. The partnership among USGS, BLM, FWS, and others is a long-term 
science-based effort to assess and enhance aquatic and terrestrial 
habitats at a landscape scale to maintain and improve habitat to 
prevent species from being listed so that we can continue to provide 
access to the public lands for multiple uses, including responsible 
energy development. Tools and technologies developed in this effort 
will be transferable to other areas in the Nation for many years where 
there are similar issues of energy development and impacts to wildlife 
habitat. Results of these effort and completion of ecological 
assessment in future years will provide the information and knowledge 
for decision-makers to build and implement adaptive management 
solutions to ensure the long-term viability of wildlife and habitats in 
these areas.
    Question. What type of data and information has been gathered to 
date that will be beneficial to future energy development?
    Answer. Healthy Lands Initiative activities focus on projects that 
focus on land resource rehabilitation, protection, and management for 
multiple land uses. Some project planning actions in the USGS to date 
include highly detailed mapping and assessment of the sagebrush 
habitat; evaluation of the cumulative effects of development; 
identification of key drivers of landscape change, including effects of 
climate change; identification of the most effective and needed 
restoration, reclamation, and mitigation activities; and detailed 
species habitat needs assessments and monitoring studies. The USGS will 
assemble all available data and information into a clearinghouse that 
will be accessible by all the Federal, State, and local partners in 
this activity.
    Question. How will this initiative reduce resource conflicts 
between the environmental community and industry?
    Answer. The Healthy Lands Initiative (HLI) is an approach to land 
management that increases the pace of and more effectively implements 
land health treatments across multiple jurisdictions. It has already 
had great success in bringing together partners with a shared interest 
in protecting, restoring, and enhancing our multi-resource ecosystems. 
HLI funding is leveraged with funding provided by other Federal 
agencies, State, local, and tribal governments, philanthropic 
organizations, advocacy groups, and industry partners. In 2008, BLM has 
initiated on-the-ground work in several emphasis areas (UT, NM, 
Southwest WY, Southeast OR-Southwest ID-Northern NV, South-central ID, 
and Western CO), and has begun working with USGS, FWS, and other 
partners to implement projects based on the highest priority integrated 
science identified through workshops and meetings with stakeholders. 
For example, in the Southwest WY Landscape Conservation Initiative 
Area, in order to strengthen the collaboration, a coalition of Interior 
bureaus along with the U.S. Forest Service, the Wyoming Game and Fish 
Department, and the Wyoming Department of Agriculture has formed a 
partnership called the Wyoming Landscape Conservation Initiative. The 
partners are extending the existing Memorandum of Understanding to 
include additional local stakeholders such as county commissioners and 
conservation district managers. Together, these partners participate in 
strategies and actions to maintain and improve area landscapes.
     u.s. geological survey/ocean and coastal frontiers initiative
    Question. The USGS budget request includes an increase of $7 
million for the Ocean and Coastal Frontiers Initiative, for a total of 
$16.1 million in fiscal year 2009. This is in addition to the $900,000 
increase included in the U.S. Fish and Wildlife Service's budget 
request. The USGS will also work in partnership with numerous other 
Federal Government agencies including: the National Oceanic and 
Atmospheric Administration (NOAA), U.S. Environmental Protection Agency 
(EPA), U.S. Army Corps of Engineers (USACE), Minerals Management 
Service (MMS), National Park Service (NPS), and the Office of Insular 
Affairs (OIA).
    Given that the Ocean and Coastal Frontiers Initiative cross-cuts so 
many agencies, is there one centralized programmatic control mechanism 
in place to ensure that there aren't any duplications of effort or 
funding?
    Answer. As part of the formulation of the fiscal year 2009 
President's Budget, the Department reviewed each bureau's participation 
in the Ocean and Coastal Frontiers Initiative, to ensure there is no 
duplication of effort.
    Question. Are the agency's activities so intricately linked that 
the funding streams are dependent upon one another? Does it make sense 
to provide $7 million to USGS for this initiative if NOAA doesn't 
receive its share of funding through the Department of Commerce budget?
    Answer. USGS will coordinate with the other Federal agencies in 
implementing the Ocean and Coastal Frontiers Initiative to ensure the 
most effective use of Federal funds. NOAA has already received $8.0 
million in 2008 for ocean exploration efforts related to this work. The 
geological data collection by USGS, when combined with the bathymetric 
data collected by NOAA, will form the basis for successful 
establishment of the U.S. continental shelf.
    Question. One of the tasks of the USGS is mapping the geology and 
boundaries of the extended continental shelf to determine the increase 
of public lands for which the Department would have regulatory 
responsibility ($4 million of the $7 million increase is for this 
activity). How long do you anticipate that it will take USGS to 
complete this activity?
    Answer. Full delineation of U.S. ECS boundaries would require both 
bathymetric and seismic/geophysical mapping in several regions. Current 
funds are for focused mapping in the Arctic, which may take several 
years depending on ice conditions, which are highly variable. Estimates 
for mapping the Atlantic will be better defined after an Atlantic 
workshop takes place in July, 2008 bringing together Federal and 
academic expertise to identify outstanding issues and data 
requirements. Furthermore, there may be additional seismic data 
required in the Pacific Islands.
    Question. Will additional funds be required in future fiscal years?
    Answer. Funding for future ECS mapping activities will respond to 
the President's budgetary priorities, which will take into account 
recommendations the Interagency Task Force on the Extended Continental 
Shelf in the context of Departmental needs and activities. Additional 
factors affecting future funding for ECS mapping will include progress 
on current data collection, as well as needs for legal, analytical, and 
other costs associated with the mapping.
                 u.s. geological survey/landsat program
    Question. Within the Land Remote Sensing program, the fiscal year 
2009 budget request includes an increase of $2 million for the National 
Land Imaging Program. USGS will act as the lead agency in this multi-
agency initiative to begin planning for an operational program to 
collect images of the Earth's surface. The USGS budget justification 
says that implementation of this new program will ``require significant 
additions, upgrades, and changes to the staffing and facilities of the 
Department''.
    Who made the determination that USGS was the most qualified to be 
the lead agency for this next generation of Land Remote Sensing? Why 
wouldn't NASA or the Department of Commerce's NOAA satellite office be 
the more appropriate lead agency?
    Answer. The Office of Science and Technology Policy issued a plan 
for the U.S. National Land Imaging Program (NLIP) in August of 2007, 
which called for NLIP to be established in the Department of the 
Interior. The current budget allocation for NLIP does not create a 
long-term program within Interior, but rather is meant to initiate an 
assessment of needs related to the next Landsat satellite. The 
Administration has not made a final determination on the role of USGS 
in the next Landsat, which will entail significant out year funding 
commitments. Instead, the current funding will lay the groundwork for 
future planning.
    Question. What is USGS's current working relationship with these 
other land imaging users?
    Answer. USGS has a good working relationship with the other land 
imaging users, and has frequent meetings with them on both specific 
topics and broad issues relating to Landsat. We will be consulting them 
in our upcoming efforts.
    Question. What kind of ``additions, upgrades, and changes'' will be 
necessary to support this new program? What costs are associated with 
these changes? Will this require the addition of a construction budget 
for USGS?
    Answer. The Department has not made any final determination on the 
need for future upgrades. If USGS is designated the appropriate entity 
for future Landsat satellites, arrangements could be parallel to NOAA's 
funding stream for operational oceanic and atmospheric satellites. In 
this case, recurring satellite-development funding would be over $100 
million per year. Additional funding determinations will consider 
planning and partnership efforts developed in 2009.
    Question. What exactly will the $2 million requested for fiscal 
year 2009 buy us? That isn't much money when you are talking about 
satellite programs, so I'm very curious about the out-year costs 
associated with the National Land Imaging Program. Does the Department 
have a long-term budgetary plan for this activity?
    Answer. The $2 million is to initiate planning and design efforts 
by assessing needs related to the future of Landsat satellites. This 
activity may support long term budgetary plans at the Department or 
within other agencies.
    Question. Although NASA and NOAA are the preeminent Federal 
Government agencies when it comes to satellites, those programs have 
been plagued with problems and are consistently behind schedule and 
over budget. Why should we create another satellite program within an 
agency that has neither the structure nor the expertise to handle such 
an activity?
    Answer. As previously stated, no final determination on the ideal 
agency to procure and operate Landsat has been made by the 
administration. The recommendation by the Office of Science and 
Technology Policy that NLIP be established within the Department of the 
Interior is reflective of a number of factors, including the success 
USGS has achieved in its Geographic Research, Investigations and Remote 
Sensing program.
        office of the special trustee/indian land consolidation
    Question. The process of Indian Land Consolidation was begun in 
1999 and to date the Department has spent nearly $170 million and 
purchased over 360,000 fractionated Indian lands in an attempt to 
consolidate them into more manageable land holdings for accounting 
purposes.
    Given that the Department continues to stress how costly it is to 
manage the ever-growing fractionation of the Individual Indian owned 
land, why is the Indian Land Consolidation program proposed for 
elimination in the fiscal year 2009 budget request?
    Answer. Since 1999, the Indian Land Consolidation Program has spent 
nearly $170 million to purchase over 360,000 interests, yet this has 
done little to reduce fractionation or decrease the costs for managing 
the trust. Most of these ownership interests were less than two percent 
of the entire parcel. In addition, provisions in the American Indian 
Probate Reform Act have greatly reduced the rate of fractionation for 
these small interests. It is clear that purchasing interests, one at a 
time, will not result in a satisfactory solution to fractionation.
    Question. The issue of accounting for the land holdings does not 
disappear with the elimination of funding for this activity. What 
alternatives to outright purchase of the land interests have been 
considered?
    Answer. The Special Trustee Advisory Board which includes one 
former and three current tribal leaders have suggested using a model 
similar to the Rosebud Tribe's Tribal Land Enterprise whereby 
individual fractionated interest holders can contribute their interest 
to the Enterprise in exchange for an equity interest equal in value to 
their land interest. We have asked ITMA to begin a consultation project 
with Indian Country to discuss the fractionation problem and advise us 
on solutions developed from tribes and individual interest holders 
prior to the Department advocating any particular solution.
             indian trust litigation/cobell vs. kempthorne
    Question. In 1994, Congress passed The American Indian Trust Fund 
Management Reform Act of 1994, requiring the Secretary of the Interior 
to ``account for the daily and annual balance of all funds held in 
trust by the United States for the benefit of an Indian tribe or an 
individual Indian which are deposited or invested pursuant to the Act 
of June 24, 1938 (25 U.S.C. Sec. 4011(a)). '' In July of 2001, the 
Office of Historical Trust Accounting (OHTA) was created by Secretarial 
Order to plan, organize, direct, and execute the historical accounting 
of Tribal Trust Fund accounts and Individual Indian Money (IIM) 
accounts.
    The Department and OHTA are involved in the Cobell vs. Kempthorne 
class action lawsuit, which has been ongoing for 12 years, to determine 
whether or not the Department has unreasonably delayed the completion 
of the Historical Accounting. On January 30, 2008, Judge James 
Robertson of the United States District Court for the District of 
Columbia, in his Findings of Fact and Conclusions of Law stated that 
``it is now clear that completion of the required accounting is an 
impossible task''.
    Given that the Judge has deemed the Historical Accounting an 
``impossible task'', why is it necessary to continue to fund the Office 
of Historical Accounting at $56.4 million in fiscal year 2009?
    Answer. The Department remains committed to seeking an appropriate 
resolution of the case in concert with Congress and other interested 
parties. The Budget request of $56 million for historical accounting 
includes approximately $36 million for the accounting related to 
Individual Indian Money (IIM) account holders with the remainder 
dedicated to accounting for tribes and Special Deposit Accounts. The 
judge did not relieve us of the requirement to continue the historical 
accounting for IIM accountholders, which we estimate under our current 
plan, will require approximately $108 million over the next 3 years to 
complete, for a total of $271 million since the implementation of the 
original 2003 plan. The judge said while the statute would require an 
accounting of ``all funds held in trust by the United States'' he did 
not believe that Congress would ever appropriate sufficient money to 
pay for such an accounting. The judge did, however, recognize the need 
for a solution. At a hearing on March 5, 2008, the Court scheduled a 
trial to begin on equitable disgorgement of funds allegedly held back 
from IIM account holders by the Government. Interior continues to work 
with the Justice Department to evaluate the Court's findings and 
conclusions.
    Question. What do you see as the next major milestones in this 
litigation?
    Answer. There are several ways in which this case can be resolved: 
a judicial settlement as decided by the Court; congressional action to 
narrow the scope of the historical accounting requirements that could 
realistically be completed; or funding in the billions of dollars 
sufficient to conduct the historical accounting, as interpreted by the 
courts, under the current law.
             bureau of indian affairs/detention facilities
    Question. I understand that several adult and juvenile detention 
facilities constructed on Indian reservations nationwide over the past 
several years are either sitting empty or are staffed and operated at 
levels far below the intended effective capacities. Tribal communities 
need these detention facilities operating at full capacity to address 
their growing law enforcement needs. Offenders that should be detained 
in these new federally-financed units are now scattered widely, across 
several States. The many juvenile offenders involved are now detained 
in places where no treatment and rehabilitation is possible, creating 
future difficulties both in terms of public safety and long term 
correctional and social costs that will be borne largely with public 
resources.
    Please provide the subcommittee with a detailed accounting of where 
and in what amounts Indian Affairs allocated funding to the staffing 
and operations of tribal adult and juvenile detention facilities in 
fiscal year 2007 and fiscal year 2008, and where anticipated funding 
would go if the fiscal year 2009 requested funding is provided.
    Answer. The fiscal year 2009 budget request for Detention and 
Corrections is $64.6 million, an increase of $5.6 million over the 
fiscal year 2008 level. The increase includes fixed costs. Increased 
funding is essential to address staffing needs for newly constructed 
detention facilities, as well as existing facilities within the 
corrections program. The proposed funding increase will allow the 
Division of Corrections to staff its detention centers to safe and 
secure levels in line with National Institute of Corrections 
guidelines. Funding allocations for 2009 will not be completed until 
the funding has been enacted.
    In 2007 and 2008 funding was distributed across Indian Country to 
increase staffing in order to meet minimum safety requirements and to 
fill positions at recently opened facilities. The attached chart 
details the funding that was provided to each facility in 2007 and 
2008.

                         BIA CORRECTIONS FUNDING
------------------------------------------------------------------------
                                                 Fiscal year
                                   -------------------------------------
                                                       2008 funding with
    Corrections Program Funding                           operational
                                           2007            increases/
                                                          decreases &
                                                            paycost
------------------------------------------------------------------------
District. CO
    K0L400  CORRECTIONS--Contract           6,564,956          7,935,837
     Bed Space....................
District. CO......................          6,564,956          7,935,837
                                   =====================================
District.--1:
    A0L400  DISTRICT I CORRECTIONS           $279,304           $306,504
    A0L410  WINNEBAGO DETENTION...             64,763            299,658
    A0L430  STANDING ROCK                     401,850          2,135,021
     DETENTION....................
    A0L460  TURTLE MOUNTAIN                   321,433            922,815
     DETENTION....................
    A0L470  FT TOTTEN DETENTION...            286,549            785,444
    A0L480  LOWER BRULE DETENTION.          2,071,069          2,506,340
    A0L490  YANKTON DETENTION.....          2,000,000          2,000,000
                                   -------------------------------------
      Subtotal....................          5,424,968          8,955,782
                                   -------------------------------------
District.1--638  Tribal Programs:
    KLA002  CHEYENNE RIVER........          1,238,973          1,238,973
    KLA003  OGLALA SIOUX..........          3,015,890          3,015,890
    KLA004  ROSEBUD...............          1,942,977          2,018,247
    KLA005  OMAHA.................            183,954            205,284
    KLA015  MENOMINEE.............            365,400            374,344
    KLA022  THREE AFFILIATED......          2,620,564          2,620,564
    KLA024  SISSETON-WAHPETON.....             95,429             98,436
                                   -------------------------------------
      Subtotal....................          9,463,187          9,571,738
                                   -------------------------------------
      Total Corrections Funding            14,888,155         18,527,520
       for District 1.............
                                   =====================================
District.--3  BIA Programs:
    H0L400  DISTRICT 3 CORRECTIONS            275,614            317,712
    H0L410  EASTERN NEVADA                  1,801,336          2,379,952
     DETENTION....................
    H0L430  UINTAH & OURAY                     80,000            233,899
     DETENTION....................
    H0L440  HOPI DETENTION........            672,860          1,235,016
    H0L490  TRUXTON CANON                   2,020,594          2,868,410
     DETENTION....................
                                   -------------------------------------
      Subtotal....................          4,850,404          7,034,989
                                   -------------------------------------
District.--3  638 Tribal Programs:
    KLH001  COLORADO RIVER INDIAN             273,903            300,677
     TRIBES.......................
    KLH002  FORT MOJAVE INDIAN                 44,880             59,992
     TRIBE........................
    KLH003  WHITE MOUNTAIN APACHE             634,621            643,435
     TRIBE........................
    KLH004  TOHONO O'ODHAM NATION           2,504,307          2,534,931
     OF ARIZONA...................
    KLH008  SAN CARLOS APACHE               2,672,645          2,737,206
     TRIBE........................
                                   -------------------------------------
      Subtotal....................          6,130,356          6,276,241
                                   -------------------------------------
      Total Corrections Funding            10,980,760         13,311,230
       for District 3.............
                                   =====================================
District.--4:
    M0L400  DISTRICT 4 CORRECTIONS            354,465            385,466
    M0L450  UTE MOUNTAIN UTE                1,592,091          2,064,568
     DETENTION....................
                                   -------------------------------------
      Subtotal....................          1,946,556          2,450,034
                                   -------------------------------------
District.--4  638 Tribal Programs:
    KLM005  PUEBLO OF LAGUNA......            239,339            246,162
    KLM014  PUEBLO OF ZUNI........            734,559            753,760
    KLM016  NAVAJO NATION.........          2,654,807          2,785,633
                                   -------------------------------------
      Subtotal....................          3,628,705          3,785,555
                                   -------------------------------------
District.--4  Self-Governance
 Programs:
    D4  Pueblo of Taos............             29,450             29,450
                                   -------------------------------------
      Subtotal....................             29,450             29,450
                                   -------------------------------------
      Total Corrections Funding             5,604,711          6,265,039
       District 4.................
                                   =====================================
District.--5:
    C0L400  DISTRICT 5 CORRECTIONS            275,905            340,899
    C0L410  CROW DETENTION........            360,648            634,391
    C0L420  NORTHERN CHEYENNE               1,803,484          1,931,064
     DETENTION....................
    C0L430  WIND RIVER DETENTION..            400,034            633,628
    C0L450  SPOKANE DETENTION.....            355,299            562,452
    C0L480  BLACKFEET DETENTION...            345,941            670,765
                                   -------------------------------------
      Subtotal....................          3,541,311          4,773,199
                                   -------------------------------------
District.--5  638 Tribal Programs:
    KLC001  BLACKFEET TRIBAL                  243,437            250,101
     BUSINESS COUNCIL.............
    KLC002  FT. BELKNAP COMMUNITY              77,724             79,618
     COUNCIL......................
    KLC003  ASSINBOINE AND SIOUX            1,700,579          1,743,130
     TRIBE FORT PECK..............
    KLC004  CONFEDERATED TRIBES OF          2,452,778          2,500,260
     COLVILLE.....................
    KLC006  CHEHALIS BUSINESS                   7,967              7,967
     COUNCIL......................
    KLC010  CONFEDERATED TRIBES OF            201,432            206,858
     WARM SPRINGS.................
    KLC018  YAKAMA TRIBAL COUNCIL.            404,092            404,092
    KLC021  SHOSONE BANNOCK (Fort             360,208            372,407
     Hall)........................
                                   -------------------------------------
      Subtotal....................          5,448,217          5,564,433
                                   -------------------------------------
District.--5  Self-Governance
 Program:
    D5  Nisqually.................            350,000            350,000
                                   -------------------------------------
      Subtotal....................            350,000            350,000
                                   -------------------------------------
      Total District 5 Corrections          9,339,528         10,687,632
       Funding....................
                                   =====================================
District.--6  638 Tribal Program
    KLS016  MISSISSIPPI BAND OF             2,316,574          2,316,574
     CHOCTAW INDIANS..............
                                   -------------------------------------
      Total District 6 Corrections          2,316,574          2,316,574
       Funding....................
                                   -------------------------------------
      Total Corrections Funding...         49,694,684         59,043,832
------------------------------------------------------------------------

                                 ______
                                 
              Questions Submitted by Senator Thad Cochran
    Question. Three years post-Hurricane Katrina, the Gulf Islands 
National Seashore is still suffering from a lack of facilities. It has 
come to my attention that fewer funds are being directed to this area, 
and that the Mississippi Gulf Coast is subject to downsizing 
facilities, rangers, and equipment. It is troubling that no 
construction has begun to replace shade areas or restrooms for Ship 
Island, which despite maintaining few temporary structures, continues 
to be a popular tourist spot on the Gulf Coast. Why does the Park 
Service feel it necessary to downsize Mississippi's presence within the 
Gulf Islands National Seashore?
    Answer. Recovery work following Hurricane Katrina continues to this 
day in multiple parks throughout the southeast. The project on Ship 
Island has undergone several changes since it was initiated. In the 
aftermath of the hurricanes in 2005, initial estimates were used to 
guide the planning for replacement facilities. As planning and design 
progressed, estimates have been firmed-up.
    In addition, in accordance with the DOI and NPS regulations and 
government-wide policies, a value analysis study was conducted on 
multiple Hurricane Katrina projects, including West Ship Islands 
Buildings. Efficiencies discovered allowed for a reduction of more than 
4,500 square feet from the original complex. We do not believe we are 
downsizing our presence but rather taking this opportunity to address 
needs in the most efficient manner possible.
    The final project including scope modifications was permitted by 
the Regional Office, and was presented to the NPS Director's Advisory 
Board in November 2007. The board recommended approval.
    The scope of the project includes 10 structures totaling 9,580 
square feet at a cost of $2,876,695. The project is currently being 
reviewed for approval by the Development Advisory Board.
    Question. The National Park Service's National Heritage Area 
program is proposed to decrease by $8 million, from last year's enacted 
amount. I have introduced legislation creating two Heritage Areas 
recently, and I understand there are very few administrative staff 
assisting this program. How is the National Park Service working to 
improve this program, with far fewer funds than necessary?
    Answer. The administration requested a reduction of funding to 
support national heritage areas based upon the lack of comprehensive 
heritage program legislation that contains clear criteria for 
designating new areas and establishes clear timelines for phasing out 
Federal support for long-established areas. Without such legislatively 
enacted parameters, there may be as many as 15 newly authorized 
heritage areas by October 1, 2008, and perhaps as many as 100 areas 
within the next few years. The Service will provide technical 
assistance and advice to heritage areas, with priority given to 
assistance with cooperative agreements, site visits to established 
areas, management planning, and liaison between the National Heritage 
Areas and other National Park Service staff, including planners and 
park staff in adjacent National Park System units. The Service will 
also distribute available funding based on a merit-based system, after 
ensuring new areas have sufficient funds to complete their management 
plans.

                         CONCLUSION OF HEARINGS

    Senator Feinstein. Thank you all very much. The 
subcommittee will stand in recess subject to the call of the 
Chair.
    [Whereupon, at 11:45 a.m., Tuesday, April 15, the hearings 
were concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]

</pre></body></html>
